No. 19-___

IN THE

MONROE COUNTY COMMISSION,
Petitioner,
v.
A.A. NETTLES, SR. PROPERTIES LIMITED AND
EULA LAMBERT BOYLES,
Respondents.
On Petition for a Writ of Certiorari
to the Supreme Court of Alabama
PETITION FOR A WRIT OF CERTIORARI

Jamie Helen Kidd
WEBB & ELEY, P.C.
7475 Halcyon Pointe Dr.
Post Office Box 240909
Montgomery, AL 36124
(334) 262-1850

Sarah E. Harrington
Counsel of Record
Erica Oleszczuk Evans
Charles H. Davis
GOLDSTEIN &
RUSSELL, P.C.
7475 Wisconsin Ave.
Suite 850
Bethesda, MD 20814
(202) 362-0636
sh@goldsteinrussell.com

QUESTION PRESENTED
Federal law expressly grants to the Surface Transportation Board (STB) exclusive jurisdiction over the
abandonment of rail lines, 49 U.S.C. § 10501, meaning
that no rail line can be considered abandoned without
the STB’s authorization. The National Trails System
Act (Trails Act), Pub. L. No. 90-543, 82 Stat. 919 (codified as amended at 16 U.S.C. § 1241 et seq.), authorizes the conversion of unused rail lines to use as recreational trails, subject to later restoration to active rail
use, as an alternative to abandonment of the lines. 16
U.S.C. § 1247(d). The Trails Act provides that, when
the conversion of a rail line to interim use as a trail “is
subject to restoration or reconstruction for railroad
purposes, such interim use shall not be treated, for
purposes of any law or rule of law, as an abandonment
of the use of such rights-of-way for railroad purposes.”
Ibid. The question presented is:
Whether federal law giving the STB exclusive jurisdiction over abandonment of rail lines and expressly
stating that conversion of a railroad right-of-way to an
interim trail use shall not be treated “for purposes of
any law” as abandonment, preempts state law that
would deem a railroad right-of-way abandoned because of disuse or conversion to interim trail use.

ii
RELATED PROCEEDINGS
Supreme Court of Alabama:
Monroe County Commission v. A.A. Nettles, Sr.
Properties Ltd., et al., No. 1170738
(Apr. 26, 2019)
Circuit Court of Monroe County, Alabama:
A.A. Nettles, Sr. Properties Ltd., et al. v. Monroe
County Commission, No. CV-2017-900097.00
(Jan. 10, 2018)
Surface Transportation Board:
Alabama Railroad Co.—Abandonment
Exemption—in Monroe County, Ala.,
No. AB 463 (Sub-No. 1X) (Apr. 19, 2013)

iii
TABLE OF CONTENTS
QUESTION PRESENTED ........................................... i
RELATED PROCEEDINGS........................................ ii
TABLE OF AUTHORITIES ....................................... iv
PETITION FOR A WRIT OF CERTIORARI .............. 1
OPINIONS BELOW .................................................... 1
JURISDICTION........................................................... 1
RELEVANT CONSTITUTIONAL AND
STATUTORY PROVISIONS ....................................... 1
INTRODUCTION ........................................................ 1
STATEMENT............................................................... 2
REASONS FOR GRANTING THE WRIT ................ 10
I.

The Decision Below Directly Conflicts With
Decisions Of Multiple Federal Courts Of
Appeals And State Courts................................... 10

II. The Preemption Question Presented Is
Important............................................................. 19
CONCLUSION .......................................................... 22
Appendix A: Supreme Court of Alabama Decision
(Apr. 26, 2019)............................................................ 1a
Appendix B: Circuit Court of Monroe County,
Alabama Decision (Jan. 10, 2018) ........................... 36a
Appendix C: Surface Transportation Board
Decision and Notice of Interim Trail Use or
Abandonment (Apr. 19, 2013) ................................. 40a
Appendix D: Relevant Contstitutional and
Statutory Provisions ................................................ 47a

iv
TABLE OF AUTHORITIES
Cases
Barclay v. United States,
443 F.3d 1368 (Fed. Cir. 2006) .............................. 10
Blalock v. Conzelman,
751 So. 2d 2 (Ala. 1999) ........................................... 9
Chi. & N.W. Transp. Co. v.
Kalo Brick & Tile Co.,
450 U.S. 311 (1981) ........................................ passim
Colorado v. United States,
271 U.S. 153 (1926) .................................................. 3
In re Conservation Law Found.,
782 A.2d 909 (N.H. 2001) ....................................... 16
Coventry Health Care of Mo., Inc. v. Nevils,
137 S. Ct. 1190 (2017) ............................................ 19
DIRECTV, Inc. v. Imburgia,
136 S. Ct. 463 (2015) .............................................. 19
Good v. Skagit County,
17 P.3d 1216 (Wash. Ct. App. 2001) ...................... 16
Grantwood Vill. v. Mo. Pac. R.R.,
95 F.3d 654 (8th Cir. 1996) ........................ 12, 13, 18
Hayfield N. R.R. v. Chi. & N.W. Transp. Co.,
467 U.S. 622 (1984) ............................................ 3, 11
Hornish v. King County,
899 F.3d 680 (9th Cir. 2018) ............................ 13, 14
Miami Cty. Bd. of Comm’rs v.
Kanza Rail-Trails Conservancy, Inc.,
255 P.3d 1186 (Kan. 2011) ............................... 15, 16
Mut. Pharm. Co. v. Bartlett,
570 U.S. 472 (2013) ................................................ 19

v
Nat’l Wildlife Fed’n v. ICC,
850 F.2d 694 (D.C. Cir. 1988) ................................ 15
Preseault v. ICC,
494 U.S. 1 (1990) ............................................ passim
Preseault v. United States,
100 F.3d 1525 (Fed. Cir. 1996) .............................. 15
Reed v. Meserve,
487 F.2d 646 (1st Cir. 1973) .............................. 5, 21
Rogers v. United States,
814 F.3d 1299 (Fed. Cir. 2015) .............................. 15
Constitutional Provisions
U.S. Const. art. VI, cl. 2 ............................. 2, 16, 19, 21
Statutes
ICC Termination Act of 1995,
Pub. L. No. 104-88, 109 Stat. 803 ............................ 3
Interstate Commerce Act, ch. 104, 24 Stat. 379
(1887) ........................................................................ 2
National Trails System Act, Pub. L. No. 90-543,
82 Stat. 919 (codified as amended at
16 U.S.C. § 1241 et seq.) ................................. passim
16 U.S.C. § 1247(d) ...................................... passim
Transportation Act of 1920, ch. 91,
41 Stat. 456 .................................................. 3, 10, 20
28 U.S.C. § 1257(a) ...................................................... 1
28 U.S.C. § 1491(a)(1) ................................................ 21
28 U.S.C. § 2321 ................................................. 4, 7, 18
28 U.S.C. § 2342(5) ............................................ 4, 7, 18
49 U.S.C. § 10501 ................................................. 10, 11
49 U.S.C. § 10501(b) .................................... 3, 8, 10, 11

vi
Regulations
49 C.F.R. § 1152.20(a)(1) ............................................. 4
49 C.F.R. § 1152.20(b) ................................................. 5
49 C.F.R. § 1152.24(e)(2) ............................................. 5
49 C.F.R. § 1152.29 ...................................................... 5
49 C.F.R. § 1152.29(d) ................................................. 7

PETITION FOR A WRIT OF CERTIORARI
Petitioner Monroe County Commission respectfully petitions for a writ of certiorari to review the
judgment of the Supreme Court of Alabama.
OPINIONS BELOW
The opinion of the Supreme Court of Alabama
(Pet. App. 1a-35a) is not yet published in an official or
regional reporter but is available at 2019 WL 1873856.
The final order of the Circuit Court of Monroe County,
Alabama (Pet. App. 36a-39a) is unpublished. The Decision and Notice of Interim Trail Use or Abandonment of the Surface Transportation Board (Pet. App.
40a-46a) is available at 2013 WL 1701800.
JURISDICTION
The judgment of the Supreme Court of Alabama
was entered on April 26, 2019. Pet. App. 1a. On July
17, 2019, Justice Thomas extended the time within
which to file a petition for a writ of certiorari to and
including September 23, 2019. No. 19A53. This Court
has jurisdiction pursuant to 28 U.S.C. § 1257(a).
RELEVANT CONSTITUTIONAL AND
STATUTORY PROVISIONS
The relevant constitutional and statutory provisions are reproduced at Pet. App. 47a-49a.
INTRODUCTION
It is difficult to imagine an area of interstate commerce over which federal law has greater preemptive
reach than railroads. The Interstate Commerce Commission was created for the express purpose of regulating railroads. Within that sphere, this Court has
repeatedly endorsed the broad preemptive effect of

2
federal agencies’ jurisdiction over the abandonment of
rail lines specifically. For decades, federal courts of
appeals and state courts of last resort have acknowledged and respected the fact that federal law governing the abandonment of rail lines preempts state property law that would otherwise apply. Until now. Ignoring express preemption provisions in federal statutes—not to mention the Supremacy Clause, U.S.
Const. art. VI, cl. 2—the Supreme Court of Alabama
has exempted the entire State of Alabama from full
application of the national “Rails-to-Trails” scheme
that is designed to preserve an interstate system of
rail lines for future use. A comprehensive system of
interstate commerce—particularly one involving rail
lines—cannot function if States are free to simply exempt themselves based on state law, even in the face
of express statutory preemption provisions. This
Court should grant the petition for a writ of certiorari
for plenary review or for summary reversal to bring
the State of Alabama into line with the rest of the
country in this vital area of interstate commerce.
STATEMENT
This case involves a direct conflict between state
and federal laws governing the conversion of portions
of interstate rail corridors from rail use to trail use
pursuant to the federal law governing “railbanking.”
The state court below erroneously held that state law
prevails in such a conflict.
1. a. Since the enactment of the Interstate
Commerce Act, ch. 104, 24 Stat. 379 (1887), “Congress
has granted to” federal agencies “authority to regulate
various activities of interstate rail carriers.” Chi. &
N.W. Transp. Co. v. Kalo Brick & Tile Co., 450 U.S.

3
311, 313 (1981). “The Interstate Commerce Act is
among the most pervasive and comprehensive of federal regulatory schemes[.]” Id. at 318. In 1920, Congress gave the Interstate Commerce Commission
(ICC) “exclusive” and “plenary” authority to regulate
abandonment of rail lines by rail carriers when it enacted the Transportation Act of 1920, ch. 91, 41 Stat.
456, 477-478. Chi. & N.W. Transp. Co., 450 U.S. at
319-320; Colorado v. United States, 271 U.S. 153, 161166 (1926). That authority now resides in the Surface
Transportation Board (STB or Board). See ICC Termination Act of 1995, Pub. L. No. 104-88, 109 Stat. 803.
“The Transportation Act prohibited a carrier from
abandoning any portion of a line without first obtaining from the [ICC or STB] a certificate of abandonment
verifying that the future public convenience and necessity permitted the cessation of the carrier’s rail service.” Hayfield N. R.R. v. Chi. & N.W. Transp. Co., 467
U.S. 622, 628 (1984).
The STB’s (formerly ICC’s) “authority over abandonments” is “[s]o broad” that “it extends even to approval of abandonment of purely local lines operated
by regulated carriers when” interstate commerce
would be affected. Chi. & N.W. Transp. Co., 450 U.S.
at 320. Congress has expressly provided that “[t]he
jurisdiction of the Board over” the “abandonment” “of
spur, industrial, team, switching, or side tracks, or facilities, even if the tracks are located, or intended to be
located, entirely in one State, is exclusive.” 49 U.S.C.
§ 10501(b). Congress further specified that, except as
otherwise noted, “the remedies provided” under the
Transportation Act “are exclusive and preempt the
remedies provided under Federal or State law.” Ibid.
And Congress has endowed federal regional courts of

4
appeals with exclusive jurisdiction over any action to
enjoin, suspend, or determine the validity of an STB
order. 28 U.S.C. §§ 2321, 2342(5).
When the STB authorizes a railroad to abandon a
line and the railroad subsequently consummates the
abandonment, that portion of the line is no longer
within the STB’s jurisdiction. Preseault v. ICC, 494
U.S. 1, 6 n.3 (1990). In contrast, when service on a rail
line is discontinued, but the rail corridor is not abandoned—as occurs when the rail line is converted to interim trail use—the railroad may “cease operating a
line for an indefinite period while preserving the rail
corridor for possible reactivation of service in the future.” Ibid.
b. In 1983, Congress enacted the National Trails
System Act Amendments of 1983, Pub. L. No. 98-11,
97 Stat. 48, which amended the National Trails System Act (Trails Act), Pub. L. No. 90-543, 82 Stat. 919
(codified as amended at 16 U.S.C. § 1241 et seq.). That
law is intended to preserve America’s rapidly disappearing interstate railway corridor infrastructure for
future rail service and energy-efficient transportation
uses by allowing inactive railroad corridors to be used
on an interim basis as public trails. See Preseault, 494
U.S. at 5-6. The Trails Act (as amended) authorizes
the Secretary of Transportation, the Chairman of the
STB, and the Secretary of the Interior to facilitate the
conversion of an established railroad right-of-way to
use as a trail on an interim basis, as an alternative to
abandonment. 16 U.S.C. § 1247(d).
When a railroad wishes to abandon a rail line, it
files a Notice of Intent with the STB. 49 C.F.R.
§ 1152.20(a)(1). Within 30 days of that filing, the railroad must file an application for abandonment with

5
the Board. Id. § 1152.20(b). Within 20 days of receiving a complete application, the Board publishes in the
Federal Register a notice of the application. Id.
§ 1152.24(e)(2). If a State, local government, or private entity is interested in converting the right-of-way
used for the rail line to use as a trail, and is interested
in serving as the “trail sponsor” by assuming financial
and managerial responsibility for the line and the
right-of-way, it may submit a trail-use proposal within
45 days of the filing of the abandonment application.
Id. § 1152.29. If the STB determines that conditions
for abandonment are met and that the trail-use proposal meets the requisite criteria, the railroad may decide whether to negotiate a trail-use agreement with
the putative trail sponsor. Ibid. If no agreement is
reached—or if the trail-use proposal does not meet the
necessary criteria—the Board authorizes the railroad
to abandon the line. Ibid.
When a railroad and a putative trail sponsor can
reach an agreement, the STB permits the railroad to
transfer the right-of-way to the sponsor for use as a
trail, subject to possible restoration of rail service in
the future. 16 U.S.C. § 1247(d); 49 C.F.R. § 1152.29.
That process is referred to as “railbanking” because it
preserves past rail corridors for potential future restoration to a rail use. In the absence of railbanking—
i.e., if currently unused portions of railroad rights-ofway are automatically deemed “abandoned” under
state law when they are no longer actively used for
railroad purposes—it would be difficult (or impossible)
to reconstitute a rail corridor in the future. See Reed
v. Meserve, 487 F.2d 646, 649-650 (1st Cir. 1973) (“To
assemble a right of way in our increasingly populous
nation is no longer simple.”).

6
In order to make it worthwhile for trail sponsors
to invest the time and money necessary to accomplish
a rail-to-trail conversion, the Trails Act postpones application of state law (and related state-law causes of
action) that would otherwise deem a railroad right-ofway to be abandoned when the right-of-way is converted to a trail use. Before the 1983 amendments,
efforts to convert rail lines to trail use had been frustrated by state property laws that terminated the
right-of-way or easement when it was no longer used
for railroad purposes. Preseault, 494 U.S. at 6-8. The
1983 amendments prevented such a termination (or
reversion of rights) by declaring that, when the conversion of a railway to interim use as a trail “is subject
to restoration or reconstruction for railroad purposes,
such interim use shall not be treated, for purposes of
any law or rule of law, as an abandonment of the use
of such rights-of-way for railroad purposes.” 16 U.S.C.
§ 1247(d). As this Court has explained, “[b]y deeming
interim trail use to be like discontinuance rather than
abandonment, Congress prevented property interests
from reverting under state law.” Preseault, 494 U.S.
at 8 (internal citation omitted). “Inevitably, interim
trail use will conflict with the reversionary rights of
adjacent land owners”—and therefore conflict with
state law—“but that is the very purpose of the Trails
Act.” Id. at 10 (citation and alteration omitted).
2. This case involves a right-of-way that was
conveyed in 2013 by the Alabama Railroad Company
to petitioner Monroe County Commission for use as a
recreation trail in accordance with the Trails Act. Pet.
App. 1a-2a, 5a. In 1997, the railroad conveyed real
property to Charles Boyles by quitclaim deed, reserving for itself a right-of-way over Boyles’ property for

7
the maintenance and operation of a railroad. Id. at 4a.
After Charles Boyles’ death, his wife respondent Eula
Boyles inherited the property subject to the railroad’s
right-of-way. Id. at 4a-5a. Eula Boyles leases the
property to respondent A.A. Nettles, Sr. Properties
Limited. Id. at 5a.
In March 2013, the railroad filed with the STB a
required “Notice of Exemption” seeking permission to
abandon approximately 7.42 miles of rail line, including the right-of-way at issue in this case. Pet. App. 5a.
In the notice, the railroad certified that it had not run
trains over the line for at least two years. Ibid. After
the railroad published its notice in the Federal Register, petitioner filed a request with the STB to assume
responsibility for the line in order to use it as a trail,
pursuant to the Trails Act. Ibid. Petitioner acknowledged that the use of the right-of-way for trail purposes would subject the right-of-way to possible future
reconstruction and reactivation for rail service. Ibid.
After the railroad indicated its willingness to negotiate with petitioner for interim trail use, the STB issued a Notice of Interim Trail Use or Abandonment
authorizing petitioner and the railroad to negotiate an
agreement. Id. at 5a, 40a-46a; 49 C.F.R. § 1152.29(d).
Respondents did not seek review of the STB’s decision
in a federal court of appeals within the time specified
in 28 U.S.C. §§ 2321, 2342(5). After reaching an agreement with petitioner, the railroad quitclaimed its interest in the right-of-way to petitioner for conversion
to trail use. Pet. App. 5a.
3. Respondents filed a complaint in Monroe
County Circuit Court, seeking to quiet title to the
right-of-way, seeking a declaration that Eula Boyles
owns the right-of-way in fee simple, and seeking an

8
injunction prohibiting petitioner from proceeding with
the trail project. Pet. App. 5a. Petitioner moved for
judgment as a matter of law on the ground that respondents’ quiet-title action is preempted by federal
law. Id. at 6a. The trial court denied those motions
and, on January 10, 2018, entered an order quieting
title to the right-of-way in respondents. Id. at 6a, 36a39a. The court applied Alabama property law to conclude that the right-of-way had terminated by operation of state law before the railroad conveyed its interest to petitioner. Id. at 6a, 37a-38a. The court further
held that “Alabama law” prohibited the railroad from
“chang[ing] the character of the Easement from a railroad easement to an easement for recreational trail
use.” Id. at 37a. The court enjoined petitioner from
continuing to create and maintain the trail use on the
property owned by respondents. Id. at 6a, 39a.
4. Petitioner appealed to the Supreme Court of
Alabama, which affirmed by a vote of six to three. Pet.
App. 1a-35a.
The state supreme court first held that the trial
court had “jurisdiction to hold that the right-of-way
had been abandoned under state law.” Pet. App. 6a;
id. at 6a-10a. The supreme court recognized that federal law vests in the STB “exclusive jurisdiction” over
“ ‘transportation by rail carriers,’ ” including the “ ‘operation, abandonment, or discontinuance of spur, industrial, team, switching, or side tracks, or facilities.’ ”
Id. at 6a-7a (quoting 49 U.S.C. § 10501(b)). The court
further recognized that the same law states that “the
remedies provided under this part with respect to regulation of rail transportation are exclusive and
preempt the remedies provided under Federal or State
law.” Id. at 7a (quoting 49 U.S.C. § 10501(b)). And the

9
court acknowledged the STB’s position that States
may not regulate matters directly regulated by the
STB, including the abandonment of rail lines. Id. at
7a-8a.
The Alabama Supreme Court nevertheless held
that determining the ownership of the right-of-way at
issue here is a matter of “state property law that existed before the advent of railroads.” Pet. App. 9a. Under Alabama law, the court concluded, the railroad
had abandoned its right-of-way “by nonuse” before it
conveyed the right-of-way to petitioner. Id. at 12a.
“Thus,” the court concluded, “the quitclaim deed conveyed nothing to [petitioner] because the railroad, at
the time of the conveyance, had nothing to transfer.”
Ibid. The court further held that, even if the right-ofway had not lapsed through the railroad’s nonuse of it
for railroad purposes, the railroad lacked authority to
“change the character of th[e] easement” from use for
railroad purposes to use as a trail. Ibid. (citing Blalock
v. Conzelman, 751 So. 2d 2 (Ala. 1999)). Because the
court thus concluded that federal law governing railway easements does not preempt state law governing
the same, id. at 6a-13a, it affirmed the trial court’s
holding that the railroad had abandoned its interest in
the right-of-way, relying in part on “the railroad’s actions of negotiating with [petitioner] to sell all of its
interest in the right-of-way for use as a recreational
trail,” id. at 19a.
Chief Justice Parker filed a dissenting opinion.
Pet. App. 21a-28a. He explained that “[t]he rule of law
requires that [the court] cannot ignore the federal statute, the United States Supreme Court’s interpretation
of it,” and the Alabama Supreme Court’s own precedent. Id. at 21a. He noted that “federal courts have

10
repeatedly held that ‘there could be no abandonment
[of a railroad easement] until authorized by federal
law.’ ” Ibid. (quoting Barclay v. United States, 443
F.3d 1368, 1374 (Fed. Cir. 2006)). Recognizing that
“the []Trails Act preempts Alabama law,” Chief Justice
Parker expressed “concern[] that the Act violates landowners’ fundamental rights of contract and property.”
Id. at 22a. The Chief Justice explained, however, that
“due to express federal preemption by the []Trails Act,
the jurisdiction to address these violations of fundamental contract and property rights lies exclusively in
the federal government.” Id. at 28a.
Justice Shaw, joined by Justice Stewart, also filed
a dissenting opinion. Pet. App. 29a-35a. He explained
that “[u]nder the plain language of 49 U.S.C.
§ 10501(b), the claims in the underlying action are
preempted by” federal law “and exclusive jurisdiction
of the action rests with the STB.” Pet. App. 35a.
REASONS FOR GRANTING THE WRIT
I.

The Decision Below Directly Conflicts With
Decisions Of Multiple Federal Courts Of
Appeals And State Courts.

Together, the Transportation Act of 1920 and the
Trails Act govern the abandonment of rail lines in the
United States. “[I]n furtherance of the national policy
to preserve established railroad rights-of-way for future reactivation of rail service, to protect rail transportation corridors, and to encourage energy efficient
transportation,” federal law expressly grants to the
STB exclusive jurisdiction over the abandonment of
rail lines and over the conversion of railroad rights-ofway to interim trail use as an alternative to abandonment. 16 U.S.C. § 1247(d); see 49 U.S.C. § 10501.

11
Federal law expressly preempts the application of
state property law that would treat the conversion of
a railroad right-of-way to a trail-use right-of-way as an
abandonment of the right-of-way. 16 U.S.C. § 1247(d);
49 U.S.C. § 10501. The Supreme Court of Alabama
held the opposite, i.e., that state property law both determines whether and when a railroad has abandoned
its railroad right-of-way and prohibits the conversion
of a railroad right-of-way to a trail-use right-of-way.
That decision is plainly incorrect—and it conflicts with
decisions of every federal court of appeals and state
court of last resort to consider these issues. This Court
should grant the petition for a writ of certiorari for plenary review or summary reversal.
A. Federal law gives the STB (and the ICC before it) “exclusive” and “plenary” jurisdiction over the
abandonment of rail lines. Chi. & N.W. Transp. Co. v.
Kalo Brick & Tile Co., 450 U.S. 311, 318 (1981). That
means that a railroad cannot abandon a rail line without the STB’s authorization, Hayfield N. R.R. v. Chi.
& N.W. Transp. Co., 467 U.S. 622, 628 (1984), even
when state law would otherwise dictate that a railroad
right-of-way has been abandoned through, e.g., disuse
or conversion, 49 U.S.C. § 10501(b). Federal law further provides, inter alia, that the STB may authorize
a railroad to discontinue service on a rail line without
abandoning the corridor if it engages in “railbanking”
by transferring the right-of-way to a trail sponsor who
will maintain the corridor for interim use as a trail
subject to later reactivation for railroad purposes. 16
U.S.C. § 1247(d).
This Court considered the constitutionality of 16
U.S.C. § 1247(d) in Preseault v. ICC, 494 U.S. 1 (1990).
Although the Court was not asked in that case to

12
determine the property rights of the parties before it,
the Court’s reasoning implicitly acknowledged that
the Trails Act preempts application of state law governing abandonment or reversion of railroad rights-ofway. The Court acknowledged that “[s]tate law generally governs the disposition of reversionary interests”
in railroad easements but explained that such state
law is “subject of course to the ICC’s ‘exclusive and plenary’ jurisdiction to regulate abandonments.” Id. at 8
(quoting Chi. & N.W. Transp. Co., 450 U.S. at 321).
The Court further explained that, “[b]y deeming interim trail use to be like discontinuance rather than
abandonment, Congress prevented property interests
from reverting under state law.” Ibid. (internal citation omitted). In other words, the Trails Act preempts
the application of state law that would deem a railroad
right-of-way to be abandoned.
Every federal court of appeals that has addressed
the issue has held that the federal scheme preempts
application of state property laws that would cause a
railroad right-of-way to terminate by operation of
state law and revert to the holder of a reversionary interest. The Eighth and Ninth Circuit have squarely
held that the Trails Act preempts state property law
in essentially the same circumstances presented here.
And the D.C. and Federal Circuits have held the same
in related types of proceedings.
In Grantwood Village v. Missouri Pacific Railroad, the Eighth Circuit considered a factual scenario
materially identical to the one presented here: a railroad transferred its right-of-way to a trail sponsor for
interim use as a trail, with approval from the ICC, and
the holder of the reversionary interest filed a quiettitle action in Missouri state court, contending that the

13
railroad had abandoned the right-of-way. 95 F.3d 654,
656-657 (8th Cir. 1996). The suit was removed to federal court, and the district court entered summary
judgment for the railroad and trail sponsor. Id. at 657.
The Eighth Circuit affirmed. Id. at 656. The court
explained that “the ICC has exclusive and plenary authority to determine whether a rail line has been abandoned,” id. at 657, and that “[s]tate law claims can only
be brought after the ICC has authorized an abandonment and after the railroad has consummated that
abandonment authorization,” id. at 659. But the court
held that the ICC does not relinquish its authority
over a rail line when it authorizes conversion of the
line to interim trail use. Because “Congress determined” by its enactment of Section 1247(d) “that interim trail use was to be treated like discontinuance
rather than as an abandonment,” the court explained,
“the ICC’s authorization of interim trail use in its Decision precludes a finding of abandonment of the rightof-way under state law.” Ibid. Even when state law
would otherwise consider the right-of-way to be abandoned when converted to use as a trail, the court held,
that law does not apply because “federal law preempts
state law on the question of abandonment while the
ICC retains jurisdiction over the right-of-way.” Id. at
658.
The Ninth Circuit reached the same conclusion in
similar circumstances in Hornish v. King County, 899
F.3d 680 (9th Cir. 2018), cert. denied, 139 S. Ct. 1546
(2019). That court held that the STB-authorized conversion of a rail line to interim trail use, subject to future reactivation as a rail line, does not change the nature of a railroad easement or constitute abandonment
of such an easement for purposes of state law. Id. at

14
695. Rather, the court explained, “ ‘the Trails Act
merely preempts abandonment of the state law easement’ ” and “preserves—rather than converts—the existing railroad easement” by “creat[ing] an additional
recreational trail easement.” Id. at 694-695 (citation
omitted). In other words, “[t]he Trails Act, by its plain
language, prevents the operation of state laws that
would otherwise come into effect upon abandonment—
property laws that would result in extinguishment of
easements for railroad purposes and reversion of
rights of way to abutting landowners.” Id. at 695 (internal quotation marks omitted); see id. at 691 (“Congress acted in the Trails Act to preclude the operation
of state laws regarding abandonment[.]”). The Ninth
Circuit specifically noted that ordinarily the applicable state law would have deemed the railroad easement abandoned and reverted to the reversionary interest holders in that case, but concluded that “the
Trails Act ha[d] stopped the reversion from occurring”
by preempting state law. Id. at 696.
Although the Federal Circuit does not hear quiettitle actions like the one at issue here, it serves a vital
role in the implementation of the rails-to-trails program because it has exclusive jurisdiction over appeals
of actions in which land-owners assert takings claims
against the United States based on the conversion of a
railroad right-of-way to an interim trail use. In that
context, the Federal Circuit has repeatedly held that
state property law is preempted by federal law to the
extent it would deem a railroad right-of-way abandoned through disuse or because of its conversion to
an interim trail use. That court has held, for example,
that federal law governing railroads has “the power to
preempt state-created property rights, including the

15
rights to possession of property when railroad easements terminate.” Preseault v. United States, 100
F.3d 1525, 1537 (Fed. Cir. 1996) (en banc). More recently, the Federal Circuit again held that when the
STB authorizes conversion of a railroad right-of-way
to interim trail use, the Board “preserves [its] jurisdiction over the corridor, thereby preempting the application of state law that might otherwise apply.” Rogers
v. United States, 814 F.3d 1299, 1303 (Fed. Cir. 2015).
The D.C. Circuit has also considered the preemptive effect of the Trails Act, in the context of reviewing
the validity of the ICC’s final rules implementing 16
U.S.C. § 1247(d). Nat’l Wildlife Fed’n v. ICC, 850 F.2d
694 (D.C. Cir. 1988). That court explained that state
property law “operate[s] subject to the ICC’s plenary
authority to regulate railroad abandonments,” id. at
703, and concluded that state law cannot “cause a reverter of a right-of-way prior to an ICC-approved
abandonment,” id. at 704. The D.C. Circuit described
as “fundamental” the view “that Congress has the authority to provide that rights-of-way no longer needed
for rail use be converted to trail use” and “that state
property laws to the contrary must be displaced by
Congress’s exercise of that authority.” Id. at 705.
State courts of last resort have similarly recognized that state law governing abandonment and conversion of railroad rights-of-way is preempted by federal law, including Section 1247(d). The Kansas Supreme Court has explained, for example, that “the federal government exclusively regulates the abandonment or discontinuance of a railroad right-of-way, and
railbanking is clearly a part of that regulatory process.” Miami Cty. Bd. of Comm’rs v. Kanza Rail-Trails
Conservancy, Inc., 255 P.3d 1186, 1198 (Kan. 2011).

16
That court further held that, “under the plain language of [Section] 1247(d), the subject provision in this
case, it is clear that railbanked rights-of-way remain
part of the national rail transportation system subject
to the jurisdiction of the STB. In other words, the STB
retains jurisdiction for future railroad use.” Ibid. The
New Hampshire Supreme Court has similarly recognized that the railbanking scheme indicates “that Congress intended the federal government to exclusively
occupy the field of railroad regulation, including the
preservation of railroad corridors for future rail use.”
In re Conservation Law Found., 782 A.2d 909, 913
(N.H. 2001).1
B. In a stark departure from that unbroken consensus—and in the face of express statutory preemption language—the Supreme Court of Alabama held
that state property law preempts the federal Trails Act
because the state law “existed before the advent of
railroads.” Pet. App. 9a. That is not the way the Supremacy Clause works. When federal and state law
conflict, federal law prevails, regardless of which came
first. Although the court was correct that in general
“determining the ownership of real property requires
a review of state law,” id. at 10a, state property law

1

In addition, the Washington Court of Appeals has expressly
held that Section 1247(d) “preempts state law on just compensation remedies,” Good v. Skagit County, 17 P.3d 1216, 1217 (Wash.
Ct. App. 2001), explaining in part that “[s]o long as the STB retains jurisdiction, state law, including that governing creation
and extinguishment of easements, is preempted, id. at 1219. See
ibid. (“By deeming interim trail use to be a discontinuance rather
than abandonment, Congress effectively prevented property interests from reverting under state law.”).

17
must yield when, as here, federal law expressly displaces it.
The Supreme Court of Alabama appeared to believe that its state law could not be preempted in this
area unless the law “impose[s] economic regulation on
rail transportation” and concluded that preemption
does not apply in this case because it does not involve
“an Alabama regulation attempting to regulate rail
transportation and to limit the use of rail property to
deter interstate commerce.” Pet. App. 9a. The court
noted in the margin that Section 1247(d) expressly
provides that, when an approved interim trail use “is
subject to restoration or reconstruction for railroad
purposes, such interim use shall not be treated, for
purposes of any law or rule of law, as an abandonment
of the use of such rights-of-way for railroad purposes,”
id. at 3a n.2—but did not even attempt to grapple with
that express preemption of state law in the text of its
opinion. That is hardly surprising because the court’s
reverse-preemption holding cannot be reconciled with
the express preemption language of Section 1247(d)
and should be reversed.
C. The Supreme Court of Alabama’s decision
squarely conflicts with the holdings of the Eighth and
Ninth Circuits, as well as with the decisions of the
D.C. Circuit, Federal Circuit, and Kansas and New
Hampshire Supreme Courts, as discussed at pp. 12-16,
supra. Each of those cases held or recognized that
state property law is preempted to the extent it would
declare a railroad right-of-way abandoned without
STB approval or would prevent conversion of a railroad right-of-way to interim trail use pursuant to the
Trails Act. The Supreme Court of Alabama held exactly the opposite.

18
The conflict could not be more stark. In the
Eighth and Ninth Circuit cases, as in this case, state
law would have deemed the railroad right-of-way to be
abandoned through disuse and/or through conversion
to a non-railroad purpose. In the federal courts, that
state law was preempted and the right-of-way preserved for interim trail use subject to future reactivation as a rail line; in this case, state law prevailed and
the right-of-way reverted to the abutting property
owner. There can be no doubt that this case would
have come out the opposite way if it had arisen in the
Eighth or Ninth Circuits—or in Kansas or New Hampshire state courts.
The conflict is even broader than that. The Supreme Court of Alabama’s holding functionally declared invalid the STB’s final order authorizing the
conversion to interim trail use. But state courts do not
have subject matter jurisdiction over challenges to an
STB order. Rather, Congress has expressly provided
that the regional courts of appeals have exclusive jurisdiction over any action challenging an order of the
STB. 28 U.S.C. §§ 2321, 2342(5). The Eighth Circuit
recognized as much in Grantwood Village, holding
that the plaintiff had waived its right to challenge the
validity of the ICC’s order authorizing interim trail
use by failing to file a petition for review in a court of
appeals. 95 F.3d at 657-658. Because respondents in
this case did not file a timely (or any) petition for review of the STB’s decision authorizing interim trail
use in a federal court of appeals, they waived their
right to challenge the validity of the STB’s order and
that order must be treated as valid in this litigation.
That fact underscores the absurdity of the Alabama
Supreme Court’s holding that state property law

19
supersedes a conflicting federal order that is authorized by federal law.
II. The Preemption Question Presented Is
Important.
A. The Supremacy Clause of the United States
Constitution provides that federal law “shall be the supreme Law of the Land.” U.S. Const. art. VI, cl. 2. The
Supreme Court of Alabama turned that provision on
its head when it held that state law trumps conflicting
federal law—even when the federal law includes an
express preemption provision.
This Court plays a vital role in policing federal
preemption principles. In service of that role, the
Court routinely grants petitions for a writ of certiorari
when an outlier court erroneously holds that a state
law is not preempted by a conflicting federal law. See,
e.g., Coventry Health Care of Mo., Inc. v. Nevils, 137
S. Ct. 1190 (2017); DIRECTV, Inc. v. Imburgia, 136
S. Ct. 463 (2015); Mut. Pharm. Co. v. Bartlett, 570 U.S.
472 (2013). The Court should grant the petition in this
case as well to bring Alabama back into line with federal law and with every other major court to consider
the question presented (not to mention every other
State in the Union). Although Alabama is so far the
only State to exempt itself from the Trails Act, that
lawless act should not be permitted to stand. States
undoubtedly have plenary authority in developing
general property law—but they do not have authority
to unilaterally exempt themselves from a federal statutory scheme governing interstate rail corridors, and
permitting that type of lawless action by even one
State would seriously undermine the interstate
scheme.

20
Because the federal statutes are unambiguous in
their express preemption of state law in this area—
and because this Court’s decision in Preseault comes
close to holding that state laws governing reversion
and abandonment of railroad rights-of-way are
preempted in the railbanking context—the Court may
wish to consider summary reversal.
B. If left undisturbed, the Supreme Court of Alabama’s erroneous decision will seriously undermine
the STB’s “exclusive” and “plenary” authority to regulate abandonment of rail lines. Chi. & N.W. Transp.
Co, 450 U.S. at 319-320. The Transportation Act of
1920 and the Trails Act implement a fundamentally
national statutory scheme; such a scheme cannot function as intended if it applies in only 49 States. The
reason Congress exercises exclusive and plenary authority over the abandonment of rail lines is because
the Nation’s rail system is the quintessential interstate enterprise. The central purpose of the railbanking scheme in particular is to preserve the rapidly disappearing interstate rail system rather than allowing
it to be dismantled piecemeal by operation of state law.
Preseault, 494 U.S. at 5-9. The Supreme Court of Alabama’s decision strikes at the heart of that interstatecommerce scheme by simply exempting Alabama from
the railbanking system in spite of the statute’s express
preemption language. And that court’s reversepreemption ruling will have real-world consequences.
Congress created the railbanking scheme because it
“believed that every line is a potentially valuable national asset,” id. at 19, and recognized that recreating
a rail corridor once dismantled would be difficult if not
impossible. If States are permitted to reclaim rail
lines through operation of expressly preempted state

21
property law, future expansion or rehabilitation of rail
corridors will be foreclosed. See Reed v. Meserve, 487
F.2d 646, 650 (1st Cir. 1973) (“A federal agency
charged with designing part of our transportation policy does not overstep its authority when it prudently
undertakes to minimize the destruction of available
transportation corridors painstakingly created over
several generations.”).
Explicit in the Trails Act—backed up by the power
of the Supremacy Clause—is that state property law
cannot cause a railroad easement to be deemed abandoned and cannot block the STB-approved conversion
of a railroad right-of-way to interim trail use. The Supreme Court of Alabama has broad authority to construe the laws of Alabama—but whatever those laws
provide, Congress has declared that they simply do not
apply in this context and the Supreme Court of Alabama has no authority to ignore the supremacy of federal law.2
This case is an ideal vehicle to address the question presented because the state court’s reversepreemption holding is unambiguous and dispositive.
That decision should not be allowed to stand.

2

The concern expressed in Chief Justice Parker’s dissenting
opinion—that the Trails Act violates landowners’ property
rights—is no reason to deny review in this case. See Pet. App.
22a. Any landowner whose property rights are impaired by operation of the Trails Act can seek just compensation from the
United States pursuant to the Tucker Act, 28 U.S.C. § 1491(a)(1).
Preseault, 494 U.S. at 11-17.

22
CONCLUSION
For the foregoing reasons, the petition for a writ
of certiorari should be granted for plenary review. In
the alternative, the Court may wish to consider summarily reversing the decision below.
Respectfully submitted,
Jamie Helen Kidd
WEBB & ELEY, P.C.
7475 Halcyon Pointe Dr.
Post Office Box 240909
Montgomery, AL 36124
(334) 262-1850

September 23, 2019

Sarah E. Harrington
Counsel of Record
Erica Oleszczuk Evans
Charles H. Davis
GOLDSTEIN &
RUSSELL, P.C.
7475 Wisconsin Ave.
Suite 850
Bethesda, MD 20814
(202) 362-0636
sh@goldsteinrussell.com

APPENDIX

1a
APPENDIX A
________________________________
SUPREME COURT OF ALABAMA
________________________________
No. 1170738
MONROE COUNTY COMMISSION
v.
A.A. NETTLES, SR. PROPERTIES LIMITED and
EULA LAMBERT BOYLES
________________________________
Rel: April 26, 2019
________________________________
Appeal from Monroe Circuit Court (CV-17-900097)
________________________________
SELLERS, Justice.
A.A. Nettles, Sr. Properties Limited (“Nettles”)
and Eula Lambert Boyles (hereinafter referred to collectively as “the plaintiffs”)1 filed in the Monroe Circuit
Court an action seeking to quiet title to a right-of-way
that had been conveyed by Alabama Railroad Company (“the railroad”) to the Monroe County

1

The complaint to quiet title identifies Nettles, a plaintiff, as
an Alabama family limited partnership doing business in the
State of Alabama and as lessee of “the lands herein described.”
The trial court’s order, discussed infra, quieted title to the rightof-way in both Nettles and Eula. Because, however, it appears
that Eula holds sole title to the right-of-way and the right-of-way
runs across property owned by Eula, we identify her as the owner
of the property, where appropriate.

2a
Commission (“the Commission”) for use as a recreational trail in accordance with the National Trails System Act (“the Trails Act”), 16 U.S.C. § 1247. The trial
court quieted title in favor of the plaintiffs. The Commission appealed. We affirm.
I. Background – The Trails Act
“As background, the Interstate Commerce Act of 1887, ch. 104, 24 Stat. 379, and
the Transportation Act of 1920, ch. 91, 41
Stat. 477-78, grant the Interstate Commerce
Commission, now the Surface Transportation
Board (‘STB’), exclusive authority over the
construction, operation and abandonment of
the Nation’s rail lines. In order for a railroad
company to terminate rail service, the railroad company must obtain the consent of the
STB. To obtain consent, the railroad company
may apply for permission to discontinue service, seek permission to terminate through
abandonment proceedings, or file a request
for an exemption from abandonment proceedings. Once the STB consents, the rail line is
removed from the national transportation
system and the STB’s jurisdiction comes to an
end.
“In 1983, Congress amended the National
Trails System Act to include an alternative
process for railroad companies to abandon

3a
rail lines. 16 U.S.C. § 1247(d)[2]. This process,
known as ‘railbanking,’ preserves corridors or
rights-of-way not in use for train service for
possible future use as recreational trails.
“In order for a rail line to be ‘railbanked,’
the railroad company must first file an abandonment application under 49 U.S.C.
§ 10903, or a notice of exemption from that
process under 49 U.S.C. § 10502. Once an
abandonment application, or request for an
exemption, is filed, a party interested in railbanking may request the issuance of a Certificate of Interim Trail Use (‘CITU’) (in abandonment application proceedings) or a Notice
of Interim Trail Use (‘NITU’) (in abandonment exemption proceedings). If the railroad
company indicates that it is willing to negotiate a railbanking and interim trail use agreement, the STB issues the CITU or NITU. The
issuance of the CITU or NITU preserves the
STB’s jurisdiction over the rail line and allows
2

16 U.S.C. § 1247(d) states, in part:

“Consistent with the purposes of [the Railroad Revitalization and Regulatory Reform Act of 1976], and in furtherance
of the national policy to preserve established railroad rightsof-way for future reactivation of rail service, to protect rail
transportation corridors, and to encourage energy efficient
transportation use, in the case of interim use of any established railroad rights-of-way pursuant to donation, transfer,
lease, sale, or otherwise in a manner consistent with this
chapter, if such interim use is subject to restoration or reconstruction for railroad purposes, such interim use shall
not be treated, for purposes of any law or rule of law, as an
abandonment of the use of such rights-of-way for railroad
purposes.”

4a
the railroad company to discontinue operations and remove track and equipment while
the parties negotiate a railbanking and interim trail use agreement.
“The NITU or CITU affords the railroad
company 180 days in which to negotiate a
railbanking and interim trail use agreement
with the third party. If an agreement is
reached, the NITU (or CITU) automatically
authorizes the interim trail use. If the STB
takes no further action, the trail sponsor then
may assume management of the right-of-way,
subject only to the right of a railroad to reassert control of the property for restoration of
rail service. If no agreement is reached, the
railroad company may proceed with the abandonment process.”
Burnett v. United States, 139 Fed. Cl. 797, 801-02
(2018)(internal citations omitted).
II. Facts and Procedural History
In May 1997, the railroad conveyed, by quitclaim
deed, real property to Charles W. Boyles, retaining for
itself a right-of-way over Charles’s property for the
maintenance and operation of a railroad.3 After
Charles died, his wife Eula inherited the property

3

The railroad retained, among other things, “a perpetual
easement, rights of way, railroad tracks, track fixtures, tunnel
structure, wire lines, signal lines, pipelines, wires, cables, apparatus, and other appliances presently existing for the operation
of the railroad”; the right to maintain the right-of-way; and the
right to restrict Charles’s activities so as to prevent him from interfering with or damaging railroad operations or property.

5a
subject to the railroad’s right-of-way; Nettles leases
the property from Eula.
In March 2013, the railroad filed with the Surface
Transportation Board (“the STB”) a “Notice of Exemption,” seeking to abandon approximately 7.42 miles of
rail line, which included the right-of-way over the
property owned by Eula and leased by Nettles. To support its invocation of the exemption, the railroad certified that it had not run trains over the line for at least
two years. The railroad published its Notice of Exemption in the Federal Register on March 21, 2013. By letter dated March 22, 2013, the Commission filed with
the STB a request for a public-use condition, as well as
a request for interim trail use pursuant to the Trails
Act. In that request, the Commission indicated its
willingness to assume responsibility for the management, legal liability, and payment of taxes for the
right-of-way, and it acknowledged that use of the
right-of-way for trail purposes was subject to possible
future reconstruction and reactivation of the right-ofway for rail service. The railroad, in turn, filed a response indicating its willingness to negotiate with the
Commission for interim trail use. On April 19, 2013,
the STB issued a Notice of Interim Trail Use (“NITU”)
permitting the Commission and the railroad to negotiate a trail-use agreement. After the railroad and the
Commission reached an agreement, the railroad quitclaimed its interest in the right-of-way to the Commission. The plaintiffs thereafter filed a complaint to
quiet title to the right-of-way; they sought a judgment
declaring that Eula owned the right-of-way in fee simple, as well as an injunction prohibiting the Commission from proceeding with the trail project pending
resolution of the quiet-title action.

6a
On December 20, 2017, the trial court conducted
a bench trial. At the close of the plaintiffs’ evidence
and again at the close of all the evidence, the Commission moved for a judgment as a matter of law on the
basis that the plaintiffs’ quiet-title action was federally preempted. The trial court denied those motions.
On January 10, 2018, the trial court entered a final order quieting title to the right-of-way in the plaintiffs. The trial court, applying Alabama property law,
held that the right-of-way had terminated by operation of law before the railroad purported to convey its
interest in the right-of-way to the Commission. Accordingly, the trial court enjoined the Commission
from proceeding with the recreational trail on the
property owned by Eula and leased by Nettles. The
Commission thereafter filed a motion requesting that
the trial court alter, amend, or vacate its judgment or,
in the alternative, order a new trial on the basis of federal preemption. Following a hearing, the trial court
denied that motion. This appeal followed.
III. Discussion
1. Federal Preemption
The Commission contends that the trial court
lacked jurisdiction to hold that the right-of-way had
been abandoned under state law because, its says, the
STB has exclusive jurisdiction over abandonments of
regulated rail lines. “We review de novo whether the
trial court had subject-matter jurisdiction.” Solomon
v. Liberty Nat’l Life Ins. Co., 953 So. 2d 1211, 1218
(Ala. 2006). It is undisputed that the Interstate Commerce Commission Termination Act (“ICCTA”) vests
the STB with exclusive jurisdiction over “(1) transportation by rail carriers” and “(2) the construction,

7a
acquisition, operation, abandonment, or discontinuance of spur, industrial, team, switching, or side
tracks, or facilities” and states that “the remedies provided under this part with respect to regulation of rail
transportation are exclusive and preempt the remedies provided under Federal or State law.” 49 U.S.C.
§ 10501(b). The STB has explained that there are two
broad categories of state regulation that are categorically preempted:
“Indeed, the courts have found two broad
categories of state and local actions to be
preempted regardless of the context or rationale for the action. The first is any form of
state or local permitting or preclearance that,
by its nature, could be used to deny a railroad
the ability to conduct some part of its operations or to proceed with activities that the
[STB] has authorized.
“Second, there can be no state or local
regulation of matters directly regulated by
the [STB]—such as the construction, operation, and abandonment of rail lines; railroad
mergers, line acquisitions, and other forms of
consolidation; and railroad rates and service.
“Both types of categorically preempted
actions by a state or local body would directly
conflict with exclusive federal regulation of
railroads. Accordingly, for those categories of
actions, the preemption analysis is addressed
not to the reasonableness of the particular
state or local action, but rather to the act of
regulation itself.

8a
“In other words, state and local laws that
fall within one of the precluded categories are
a per se unreasonable interference with interstate commerce. For such cases, once the parties have presented enough evidence to determine that an action falls within one of those
categories, no further factual inquiry is
needed.
“For state or local actions that are not facially preempted, the section 10501(b)
preemption analysis requires a factual assessment of whether that action would have
the effect of preventing or unreasonably interfering with railroad transportation.”
CSX Transp., Inc.—Petition for Declaratory Order,
STB Finance Docket No. 34662 (STB May 3, 2005) (internal citations omitted).
“Despite its breadth, the jurisdiction of the STB
does not foreclose every conceivable state claim.” Sunflour R.R. v. Paulson, 670 N.W.2d 518, 523 (S.D. 2003).
Rather, “[i]n all pre-emption cases, and particularly in
those in which Congress has ‘legislated . . . in a field
which the States have traditionally occupied,’ . . . we
‘start with the assumption that the historic police powers of the States were not to be superseded by the Federal Act unless that was the clear and manifest purpose of Congress.’” Medtronic, Inc. v. Lohr, 518 U.S.
470, 485 (1996) (quoting Rice v. Santa Fe Elevator
Corp., 331 U.S. 218, 230 (1947)). The United States
Supreme Court has explained this assumption: “We
rely on the presumption because respect for the States
as ‘independent sovereigns in our federal system’ leads
us to assume that ‘Congress does not cavalierly
preempt state-law causes of action.’” Wyeth v. Levine,

9a
555 U.S. 555, 565 n. 3 (2009) (quoting Lohr, 518 U.S.
at 485). “The presumption thus accounts for the historic presence of state law but does not rely on the absence of federal regulation.” 555 U.S. at 566 n. 3. The
idea is that, although the STB has “exclusive and
preemptive jurisdiction,” this expansive jurisdiction is
given for a specific reason: to prevent attempts by
states to impose economic regulation on rail transportation. In other words, the goal of the STB is to limit,
if not prevent, state regulation of interstate rail transportation to avoid the pitfalls and nuances of laws enacted by each state’s legislature that would deter a
railroad’s ability to operate efficiently and the possibility of divergent regulations from each state.
In this case, we are not faced with an Alabama
regulation attempting to regulate rail transportation
and to limit the use of rail property to deter interstate
commerce. Rather, we are dealing with state property
laws that existed before the advent of railroads, and
we are asked to consider the impact of a railroad rightof-way, reserved in a quitclaim deed, on the rights of
an adjoining property owner when the purpose of the
right-of-way has lapsed by nonuse and the holder of
the right-of-way attempts to transfer its interest to
create a new use, not envisioned by the reservation of
rights in the initial instrument conveying the right-ofway.
In Ruckelshaus v. Monsanto Co., 467 U.S. 986,
1001 (1984), the United States Supreme Court stated:
“[W]e are mindful of the basic axiom that ‘“[p]roperty
interests . . . are not created by the Constitution. Rather, they are created and their dimensions are defined by existing rules or understandings that stem
from an independent source such as state law.”’”

10a
(Quoting Webb’s Fabulous Pharmacies, Inc. v. Beckwith, 449 U.S. 155, 161 (1980), quoting in turn Board
of Regents v. Roth, 408 U.S. 564, 577 (1972).) In Oregon ex rel. State Land Board v. Corvallis Sand &
Gravel Co., 429 U.S. 363, 378 (1977), the United States
Supreme Court stated that, “[u]nder our federal system, property ownership is not governed by a general
federal law, but rather by the laws of the several
States.” See also Davies Warehouse Co. v. Bowles, 321
U.S. 144, 155 (1944) (“The great body of law in this
country which controls acquisition, transmission, and
transfer of property, and defines the rights of its owners in relation to the state or to private parties, is
found in the statutes and decisions of the state.”). It is
clear then that, even in a regime of federal preemption, determining the ownership of real property requires a review of state law.
2. State-Law Quiet-Title Action
As indicated, the plaintiffs filed a complaint seeking to quiet title to the right-of-way. It is helpful to remember that the right-of-way was created by reservation in a 1997 quitclaim deed and that the railroad, as
the holder of the easement, attempted to convey the
right-of-way also by quitclaim deed. As a matter of Alabama law, the precise language and nature of the
rights reserved under the 1997 quitclaim deed are critical in assessing whether the railroad had any right or
title to effectively quitclaim its interests in the rightof-way to the Commission. The trial court determined
that, under the quitclaim deed, the railroad reserved
for itself a right-of-way for the maintenance and operation of a railroad only; that the railroad had changed
the character of the right-of-way from a railroad rightof-way to a right-of-way for recreational trail use; that

11a
the railroad had abandoned the right-of-way when it
failed to rebuild a burnt train trestle and removed the
rails and cross ties from the right-of-way; and that the
right-of-way was thus extinguished by operation of
law. Accordingly, the trial court concluded that, because the right-of-way had been extinguished by operation of law, the railroad had nothing to convey to the
Commission. See Benedict v. Little, 288 Ala. 638, 643,
264 So. 2d 491, 494 (1972) (noting that, under Alabama law, “[a] quitclaim deed can convey nothing
more than what the grantor actually owns”). The
analogy used by the trial court is the same analogy
employed by a federal claims court assessing a claim
under the Miller Act, 28 U.S.C. § 1491. See, e.g., Burnett, 139 Fed. Cl. at 804:
“To determine whether a Fifth Amendment takings has occurred in a rails-to-trails
case, the Court follows a three-part analysis
established by the United States Court of Appeals for the Federal Circuit. First, the Court
must determine who owned the land at issue
at the time of the takings, and specifically,
whether the railroad company owned the land
in fee simple or held only an easement. Second, if the railroad company owned only an
easement, the Court must determine whether
the terms of the easement are limited to use
for railroad purposes, or whether the terms
include use as a public recreational trail.
Third, if the railroad company’s easement is
broad enough to encompass recreational trail
use, the Court must determine whether the
easement terminated prior to the alleged takings, so that the property owner held a fee

12a
simple estate unencumbered by easement at
the time of the takings.”
(Citations omitted.)
Thus, as did the trial court, we look to what the
railroad owned at the time it executed and delivered
the quitclaim deed to the Commission. When the railroad undisputedly ceased using the right-of-way for
railroad purposes, under Alabama property law, its
right-of-way across Eula’s property lapsed by nonuse.
When the right-of-way lapsed by nonuse, the right-ofway was extinguished, and the property burdened by
the right-of-way vested in Eula automatically, by operation of law. Thus, the quitclaim deed conveyed
nothing to the Commission because the railroad, at the
time of conveyance, had nothing to transfer. In other
words, the railroad’s inaction in failing to use its rightof-way terminated the right-way-of, divesting it of any
further interest in the property. Further, the right-ofway was limited to use for railroad purposes; even under decisions from the federal courts, conveying a railway easement for another use allows the adjoining
property owner to look to state law to determine the
owner’s rights in the property.
Under Alabama law, one holding an easement
cannot change the character of that easement. Blalock
v. Conzelman, 751 So. 2d 2 (Ala. 1999). Neither can
the easement holder “enlarge upon an easement for
other purposes.” Roberts v. Monroe, 261 Ala. 569, 577,
75 So. 2d 492, 499 (1954). An easement, then, specifically for railroad purposes precludes the easement
holder from expanding the use of the easement to anything other than railroad operations. Alabama has
specifically addressed railroad easements and has determined that they are limited and cannot be

13a
expanded. See Nashville, Chattanooga & St. Louis Ry.
v. Karthaus, 150 Ala. 633, 43 So. 791 (1907); West v.
Louisville & Nashville R.R., 137 Ala. 568, 34 So. 852
(1903). “[A]n easement given for a specific purpose terminates as soon as the purpose ceases to exist, is abandoned, or is rendered impossible of accomplishment.”
Tatum v. Green, 535 So. 2d 87, 88 (Ala. 1988). Thus,
under the facts of this case, the trial court did not err
in applying state-law principles to conclude that the
right-of-way had been extinguished by operation of
law, causing title to the right-of-way to revert to Eula.
“In an action to quiet title, when the trial court hears
evidence ore tenus, its judgment will be upheld unless
it is palpably wrong or manifestly unjust.” Woodland
Grove Baptist Church v. Woodland Grove Cmty. Cemetery Ass’n, Inc., 947 So. 2d 1031, 1036 (Ala. 2006). We
cannot say that the trial court’s determination here
was wrong, much less unjust.
3. Mobile & Gulf R.R. v. Crocker,
455 So. 2d 829 (Ala. 1984)
The Commission relies on Mobile & Gulf R.R. v.
Crocker, 455 So. 2d 829 (Ala. 1984), to support its argument that the trial court lacked subject-matter jurisdiction to determine that the railroad had abandoned its right-of-way over Eula’s property. In
Crocker, the landowners sought a judgment declaring
that a railroad had abandoned its right-of-way over
their property. At the time the landowners filed their
state-court action, the railroad had not initiated any
proceedings with the Interstate Commerce Commission (“ICC”), now the STB, seeking to abandon the
right-of-way; thus, the ICC had not authorized the
abandonment of the right-of-way. The railroad filed,
among other things, a motion to dismiss the

14a
landowners’ declaratory-judgment action on the basis
that the trial court lacked subject-matter jurisdiction
over it. The trial court denied that motion. This Court
granted the railroad permission to appeal pursuant to
Rule 5, Ala. R. App. P. The Crocker Court reversed the
judgment of the trial court, concluding that the ICC
had exclusive jurisdiction over the abandonment of the
right-of-way; that the ICC had not authorized the
abandonment of the right-of-way; and that the trial
court, thus, lacked jurisdiction to hear the landowners’
action.
In this case, the Commission’s reliance on Crocker
is misplaced; Crocker is easily distinguished, not only
procedurally, but also by changes in the law since
Crocker was decided. Consider the manner in which
the rights-of-way were created. The right-of-way easement in Crocker was created by a condemnation action. In this case, the right-of-way easement was reserved in a quitclaim deed when the railroad conveyed
its property to Eula’s predecessor in title. Because a
condemnation action is a much more aggressive means
to create a right-of-way and requires not only judicial
action but also a showing of necessity, the lapse of a
right-of-way by nonuse is much harder to establish in
such a case and requires judicial scrutiny. By merely
reserving the right-of-way in a quitclaim deed and limiting it to railroad use, establishing lapse by nonuse in
such a case involves a lower threshold, especially because the railroad had reserved the right-of-way without any court action and the right-of-way would lapse
by nonuse without a specific finding or the necessity of
any court action. Thus, reserving a right-of-way in a
quitclaim deed is a nonjudicial method by which a railroad can establish an easement, and it stands to

15a
reason that such an easement could be undone without
judicial action. Condemnation, on the other hand, is a
much more involved judicial process such that any
lapse in use and establishing nonuse would require judicial action to vacate the right-of-way and change its
use. Additionally, in Crocker, both the landowners
and the railroad requested a judgment declaring
whether the right-of-way had been abandoned. As
noted, the railroad had never invoked the jurisdiction
of the ICC seeking permission to abandon the right-ofway. In other words, the declaratory-judgment action
in Crocker would have required the trial court to specifically invade the ICC’s jurisdiction to determine
whether the right-of-way had been abandoned. Here,
neither the plaintiffs nor the Commission sought a
judgment concerning whether the right-of-way had
been abandoned. Rather, the plaintiffs merely filed a
statutory action seeking to quiet title to the right-ofway because the Commission had represented, in conjunction with the trails project, that it held fee title to
the right-of-way. Section 6-6-540, Ala. Code 1975, provides:
“When any person is in peaceable possession of lands, whether actual or constructive,
claiming to own the same, in his own right or
as personal representative or guardian, and
his title thereto, or any part thereof, is denied
or disputed or any other person claims or is
reputed to own the same, any part thereof, or
any interest therein or to hold any lien or encumbrance thereon and no action is pending
to enforce or test the validity of such title,
claim, or encumbrance, such person or his
personal representative or guardian, so in

16a
possession, may commence an action to settle
the title to such lands and to clear up all
doubts or disputes concerning the same.”
See also Dake v. Inglis, 239 Ala. 241, 243, 194 So. 673,
674 (1940) (“The purpose of the [quiet-title] proceeding
is not to invest the court with jurisdiction to sell or dispose of the title to the land, but merely to determine
and settle the same as between the complainant and
the defendants.”).
In entertaining the plaintiffs’ quiet-title action,
the trial court had before it various documents, including the decision of the STB granting the NITU based
on the railroad’s certification that it had not used the
right-of-way for at least two years. In other words, the
trial court had an admission by the railroad as the former title holder affirming that it had ceased to use the
right-of-way for railroad purposes. The trial court
clearly had jurisdiction to decide the nature and extent
of the right-of-way under Alabama law and to quiet title in Eula. Accordingly, unlike Crocker, where the jurisdiction of the ICC had not been invoked, the STB
had already acted in this case, and the trial court
merely relied on the STB’s findings to quiet title to the
right-of-way.
Finally, we note that Crocker was decided in July
1984, shortly after Congress amended the Trails Act
in March 1983 to include interim trail use as an alternative process by which railroad companies could
abandon rail lines. Contrary to the Commission’s interpretation of Crocker, i.e., that the plaintiffs’ quiettitle action falls exclusively within the STB’s jurisdiction, we note that the STB has routinely issued decisions refusing to intervene in actions involving property disputes that can be resolved under state law.

17a
See, e.g., Allegheny Valley R.R.—Petition for Declaratory Order—William Fiore, STB Finance Docket No.
35388 (STB April 25, 2011) (denying a railroad’s request for a declaratory order that state-law claims and
remedies concerning the size and extent of a railroad
easement were preempted by 49 U.S.C. § 10501(b),
where the disputes involved “the application of state
property law and properly are before the state court”).
In the Allegheny Valley case, the landowner purchased
a parcel of land subject to a railroad’s right-of-way; the
railroad had acquired the right-of-way from another
railroad via a quitclaim deed. The landowner filed a
state-court action seeking a determination under
Pennsylvania law as to the width and location of the
property claimed by him and the railroad, as well as a
determination whether the railroad owned the property in fee simple or had only an easement. The STB
declined the railroad’s request for a declaratory order
because the landowner’s action involved questions of
state property law that would be best handled by state
courts. Again, the STB’s decisions express an unwillingness to accept jurisdiction of matters involving
state-property issues even when railroad companies
attempt to invoke the STB’s exclusive jurisdiction. See
also Ingredion Incorporated—Petition for Declaratory
Order, STB Finance Docket No. 36014 (STB September 30, 2016), where the STB declined to issue a declaratory order when the case arose from a property
dispute originating in state court concerning the application of state property law on the ground that those
are questions that the state court should resolve—
“questions of [state] property law generally are more
appropriately decided by [state] courts.”

18a
4. Sufficiency of the Evidence – Abandonment
Alternatively, the Commission argues that the
trial court erred in refusing to grant it a new trial because, it says, there was no evidence indicating that
the railroad had abandoned its interest in the right-ofway before it conveyed the property to the Commission
by quitclaim deed. It is undisputed that, at all times
relevant to this appeal, the rail line fell into disrepair
and had not ben used for many years. The trial court
stated in its order that the character of the right-ofway was changed when the railroad conveyed its interests in it to the Commission and that both the failure of the railroad to construct an essential trestle and
the removal of the rails indicated an abandonment of
the right-of-way and rendered the specific purpose of
the easement impossible. Thus, the trial court held
that the right-of-way was extinguished by operation of
law, causing title to the right-of-way to vest with Eula.
In Chatham v. Blount County, 789 So. 2d 235, 241
(Ala. 2001), this Court stated explained:
“As a general rule, one holding an easement
cannot change the character of that easement, Blalock v. Conzelman, 751 So. 2d 2
(Ala. 1999), or ‘enlarge upon [that] easement
for other purposes.’ Roberts v. Monroe, 261
Ala. 569, 577, 75 So. 2d 492, 499 (1954). Specifically as to a railroad easement, this Court
has held that such an easement was limited
in use to railroad purposes. Nashville, C. &
St. L. Ry. v. Karthaus, 150 Ala. 633, 43 So.
791 (1907); West v. Louisville & N. R.R., 137
Ala. 568, 34 So. 852 (1903). An easement
granted for a specific purpose is deemed abandoned when its owner ‘“‘by his own act

19a
renders the use of the easement impossible,
or himself obstructs it in a manner inconsistent with its further enjoyment.’”’ Byrd
Cos. v. Smith, 591 So. 2d 844, 847 (Ala. 1991)
(quoting Polyzois v. Resnick, 123 Neb. 663,
668, 243 N.W. 864, 866 (1932) (quoting treatise)). See also Tatum v. Green, 535 So. 2d 87,
88 (Ala. 1988) (‘[A]n easement given for a specific purpose terminates as soon as the purpose ceases to exist, is abandoned, or is rendered impossible of accomplishment.’).”
The Commission contends that there was no evidence before the trial court indicating that the railroad
had removed the tracks and ties from the railroad corridor. Notably, there is nothing in the trial transcript
indicating that the tracks and ties had been removed
from the railroad corridor. However, the record does
indicate that the parties had been before the court on
at least two other occasions; those transcripts are not
before us. In any event, we conclude that the trial
court had sufficient evidence before it to determine
that the railroad intended to abandon its interest in
the right-of-way. The trial court had before it pictures
of a train trestle that had burned in January 2007; the
railroad never rebuilt that trestle, thereby making the
specific purpose of the right-of-way, i.e., operation of a
railroad, impossible. The evidence of intent to abandon is further bolstered by the railroad’s actions of negotiating with the Commission to sell all of its interest
in the right-of-way for use as a recreational trail. See,
e.g., Lawson v. State, 107 Wash. 2d 444, 452, 730 P.2d
1308, 1313 (1986)(holding that, where deed conveyed
right-of-way for railroad purposes only, change in use
from “Rails to Trails” constituted abandonment).

20a
Accordingly, the trial court did not err in concluding
that the easement reserved to the railroad by a rightof-way as provided in the quitclaim deed conveying the
property to Charles lapsed by nonuse and was thus extinguished by operation of law, leaving nothing for the
railroad to convey to the Commission.
IV. Conclusion
Based on the foregoing, the judgment of the trial
court is due to be affirmed.
AFFIRMED.
Bolin, Wise, Mendheim, and Mitchell, JJ., concur.
Bryan, J., concurs in the result.
Parker, C.J., and Shaw and Stewart, JJ., dissent.

21a
PARKER, Chief Justice (dissenting).
I reluctantly dissent. The rule of law requires that
we cannot ignore the federal statute, the United States
Supreme Court’s interpretation of it, and this Court’s
precedent in Mobile & Gulf R.R. v. Crocker, 455 So. 2d
829 (Ala. 1984).
When we interpret an express-preemption clause
in a federal statute, we must “‘focus on the plain wording of the clause.’”
Norfolk Southern Ry. v.
Goldthwaite, 176 So. 3d 1209, 1213 (Ala. 2015) (quoting CSX Transp., Inc. v. Easterwood, 507 U.S. 658, 664
(1993)). The statutory scheme underlying the Railsto-Trails Act gives the Surface Transportation Board
(“the STB”) exclusive jurisdiction over the “abandonment[] or discontinuance” of a rail line. 49 U.S.C.
§ 10501(b)(2). Although “[s]tate law generally governs
the disposition of reversionary interests, . . . [the STB
has] ‘exclusive and plenary’ jurisdiction to regulate
abandonments.” Preseault v. ICC, 494 U.S. 1, 8 (1990).
Thus, the federal courts have repeatedly held that
“there could be no abandonment until authorized by
federal law.” Barclay v. United States, 443 F.3d 1368,
1374 (Fed. Cir. 2006); see Jackson v. United States,
135 Fed. Cl. 436, 443 (2017) (“The Trails Act prevents
a common law abandonment of the railroad right-ofway from being effected, thus precluding state law reversionary interests from vesting.” (emphasis added));
Preseault v. ICC, 853 F.2d 145, 150 (2d Cir. 1988)
(“Until the [STB] issues a certificate of abandonment,
the railway property remains subject to the [STB’s] jurisdiction, and state law may not cause a reverter of
the property.”); National Wildlife Fed’n v. ICC, 850
F.2d 694, 704 (D.C. Cir. 1988) (“Nor may state law

22a
cause a reverter of a right-of-way prior to an [STB]approved abandonment.”).
Moreover, this Court has already decided the issue whether a state court has “subject matter jurisdiction of an abandonment of a railroad right-of-way, or
. . . [whether] the question of abandonment [is] preempted by . . . 49 U.S.C. § 10501 et seq.” Crocker, 455
So. 2d at 830. After reasoning that the “act is among
the most pervasive and comprehensive of federal regulatory schemes,” the Court held that “the [STB] has
exclusive jurisdiction to determine whether there was
an abandonment of the railroad right-of-way.” Id. at
832, 834. Because Crocker squarely addressed
preemption of the issue of abandonment, I am unpersuaded that Crocker is distinguishable based on the
vagaries of how or when the issue arises in the state
court. I am also not convinced that the prior denials of
relief by the STB are relevant here, because those denials either addressed legal issues not within the scope
of 49 U.S.C. § 10501(b)(2) or simply declined to rule on
preemption. Therefore, this Court should reverse the
circuit court’s judgment and remand the case with directions to dismiss the plaintiffs’ action.
Nevertheless, although I recognize that the Railsto-Trails Act preempts Alabama law, I am concerned
that the Act violates landowners’ fundamental rights
of contract and property. When the railroad reserved
an easement over Charles W. Boyles’s property, it negotiated for the right to use the easement for railroad
operations. The railroad did not negotiate for a public
recreational trail. The United States Court of Appeals
for the Federal Circuit has recognized this disparity in
anticipated use, noting that “[i]t is difficult to imagine
that either party to the original transfers had

23a
anything remotely in mind that would resemble a public recreational trail.” Preseault v. United States, 100
F.3d 1525, 1543 (Fed. Cir. 1996). Comparing the two
uses, the court observed:
“When the easements here were granted
. . . specifically for transportation of goods and
persons via railroad, could it be said that the
parties contemplated that a century later the
easements would be used for recreational hiking and biking trails, or that it was necessary
to so construe them in order to give the
grantee railroad that for which it bargained?
We think not. Although a public recreational
trial could be described as a roadway for the
transportation of persons, the nature of the
usage is clearly different. In the one case, the
grantee is a commercial enterprise using the
easement in its business, the transport of
goods and people for compensation. In the
other, the easement belongs to the public, and
is open for use for recreational purposes,
which happens to involve people engaged in
exercise or recreation on foot or on bicycles.”
100 F.3d at 1542-43.
Other courts have similarly noted that “[r]ecreational hiking, jogging and cycling are not connected
with railroad use in any meaningful way.” Glosemeyer
v. United States, 45 Fed. Cl. 771, 779 (2000); see also
Harley-White v. United States, 129 Fed. Cl. 548, 556
(2016) (“Because the easements were held for a railroad purpose, the transformation of the right-of-way
into a recreational trail goes beyond the scope of the
easements . . . .”); Lawson v. State, 107 Wash. 2d 444,
451, 730 P.2d 1308, 1312 (1986) (“[A] hiking and

24a
biking trail is not encompassed within a grant of an
easement for railroad purposes only.”); Toews v.
United States, 376 F.3d 1371, 1376-77 (Fed. Cir. 2004)
(“[U]se of these easements for a recreational trail—for
walking, hiking, biking, picnicking, frisbee playing,
with newly-added tarmac pavement, park benches, occasional billboards, and fences to enclose the trailway—is not the same use made by a railroad, involving tracks, depots, and the running of trains. . . . Some
might think it better to have people strolling on one’s
property than to have a freight train rumbling
through. But that is not the point. The landowner’s
grant authorized one set of uses, not the other.”). More
than a slight alteration, the Rails-to-Trails Act creates
“a new easement for a new use—for recreational trail
use.” Hornish v. King Cty., 899 F.3d 680, 696 (9th Cir.
2018).
The Federal Circuit has also acknowledged that
“different uses create different burdens.” Toews, 376
F.3d at 1376.
“It is one thing to have occasional railroad
trains crossing one’s land. Noisy though they
may be, they are limited in location, in number, and in frequency of occurrence. . . . When
used for public recreational purposes, however, in a region that is environmentally attractive, the burden imposed by the use of the
easement is at the whim of many individuals,
and . . . has been impossible to contain in
numbers or to keep strictly within the parameters of the easement.”
Preseault v. United States, 100 F.3d at 1543.

25a
This use of the Rails-to-Trails Act thus thwarts
landowners’ expectations. Before the Act, landowners
“would have been secure in the knowledge . . . that the
only use that could be made of their lands were those
related to the operation of a railroad.” Glosemeyer, 45
Fed. Cl. at 781. However, “[s]olely because of the operation of the Rails-to-Trails Act,” the lands are “now
burdened by new easements—for recreational trails.
Whereas previously the [landowners] could exclude all
but the railroads from use of the right-of-ways, now
the public at large has access.” Id. In this way, the
Act strong-arms landowners into a new, unnegotiated
agreement—a new contract for which they were not
given consideration and to which they did not assent.
The Rails-to-Trails Act also violates a landowner’s
property rights. The importance of those rights was
emphasized by those whose ideas helped organize the
English common law, inspire American independence,
and create the United States Constitution. John
Locke explained: “The reason why men enter into society is the preservation of their property . . . . [W]henever the legislators endeavor to take away and destroy
the property of the people, . . . they put themselves into
a state of war with the people . . . .” John Locke, Concerning Civil Government, Second Essay 75-76 (Robert
Maynard Hutchins ed., Encyclopedia Britannica, Inc.,
1952) (1690). The English jurist William Blackstone
called the right to property “that sole and despotic dominion which one man claims and exercises over the
external things of the world, in total exclusion of the
right of any other individual in the universe.” 2 William Blackstone, Commentaries *2.
During the Founding Era, James Madison, Father
of the Constitution, echoed this right before the

26a
Virginia Constitutional Convention. He argued that
“the rights of persons, and the rights of property, are
the objects, for the protection of which Government
was instituted.” James Madison, “Speech in the Virginia Constitutional Convention” (1829), in James
Madison: Writings at 824 (Jack N. Rakove ed., Library
of America 1999). Madison also wrote that “[g]overnment is instituted to protect property of every sort; . . .
[T]hat alone is just government, which impartially secures to every man, whatever is his own.” James Madison, “Property” (1792), in Madison: Writings at 515.
Conversely, Madison warned that it “is not a just government, nor is property secure under it, where the
property which a man has in his personal safety and
personal liberty, is violated by arbitrary seizures of
one class of citizens for the service of the rest.” Id. at
516.
The Rails-to-Trails Act violates a landowner’s
property rights by taking his land and giving it to a
railroad company for use by the public at large. Specifically, the Act “takes a landowner’s right to use or
sell his or her reversionary interest and gives this
right to a railroad company. The railroad company
now has the right . . . to sell an interest in the landowner’s property.” Mark F. Hearne II, Lindsay Brinton & Meghan Largent, The Trails Act: Railroading
Property Owners and Taxpayers for more than a Quarter Century, 45 Real Prop. Tr. & Est. J. 115, 162 (2010).
Where once the owner held the full bundle of sticks
(minus an easement allowing a railroad to operate),
the Act “takes this entire bundle of sticks from the
owner and gives them to the railroad . . . . The landowner is left with nominal title . . . .” Id. As a consequence, the landowner may be stuck with increased

27a
crime from those using the trail, loss of privacy, decrease in property values, and litigation costs. See
Emily Drumm, Comment, Addressing the Flaws of the
Rails-to-Trails Act, 8 Kan. J.L. & Pub. Pol’y 158
(Spring 1999).
Notably, the Act permits the whole public onto a
landowner’s property, terminating one of the most important property rights: the right to exclude. “In the
bundle of rights we call property, one of the most valued is the right to sole and exclusive possession—the
right to exclude strangers, or for that matter friends,
but especially the Government.” Hendler v. United
States, 952 F.2d 1364, 1374 (Fed. Cir. 1991); see also
Loretto v. Teleprompter Manhattan CATV Corp., 458
U.S. 419, 435-36 (1982) (“The power to exclude has traditionally been considered one of the most treasured
strands in an owner’s bundle of property rights. . . .
[T]he permanent physical occupation of property forever denies the owner any power to control the use of
the property . . . .”).
Compounding these violations of contract and
property rights, the rails-to-trails process does not require actual notice to the landowner before conversion
of the easement. See National Ass’n of Reversionary
Prop. Owners v. ICC, 70 F.3d 638 (D.C. Cir. 1995) (table). Although the Act requires notice of a railroad’s
intent to abandon a rail line, that notice is not sufficient to apprise the landowner that the easement will
be converted to a recreational trail. Thus, the Act essentially effects a taking without notice.
In all these ways, the Rails-to-Trails Act allows
the federal government to take property rights away
from Alabamians. “[T]he right to control one’s property is a sacred right which should not be taken away

28a
without urgent reason.” Smith v. Smith, 254 Ala. 404,
409, 48 So. 2d 546, 549 (1950). A recreational trail is
not such a reason. However, due to express federal
preemption by the Rails-to-Trails Act, the jurisdiction
to address these violations of fundamental contract
and property rights lies exclusively in the federal government.

29a
SHAW, Justice (dissenting)
I respectfully dissent. Under federal law, the Surface Transportation Board (“the STB”) has exclusive
jurisdiction over this action that seeks to quiet title to
an allegedly abandoned railroad easement.
The Interstate Commerce Commission Termination Act, 49 U.S.C. § 10101 et seq. (“the ICCTA”), established the STB and gave it “exclusive jurisdiction
over certain aspects of railroad transportation.”
Adrian & Blissfield R.R. v. Village of Blissfield, 550
F.3d 533, 539 (6th Cir. 2008). Additionally, “Congress
intended to preempt state and local laws that come
within the [STB’s] jurisdiction.” Texas Cent. Bus.
Lines Corp. v. City of Midlothian, 669 F.3d 525, 530
(5th Cir. 2012). The intent of the ICCTA to “preempt
state and local regulation of railroad transportation
has been recognized as broad and sweeping.” Union
Pac. R.R. v. Chicago Transit Auth., 647 F.3d 675, 678
(7th Cir. 2011). See also New England Cent. R.R. v.
Springfield Terminal Ry., 415 F. Supp. 2d 20, 27
(D. Mass. 2006) (“Courts have consistently found that
state law that directly or indirectly regulates railroads
is preempted by § 10501(b).”).
The main opinion holds that the STB’s “exclusive
and preemptive jurisdiction” is limited by its “specific
reason”: to prevent “economic regulation” by the
states of rail transportation. ___ So. 3d at ___. Numerous federal court decisions, however, have rejected the
idea that the ICCTA is limited only to “economic” regulation. Although economic regulation has been described as the “core of ICCTA preemption,” its preemptive effect “may not be limited to state economic regulation.” Elam v. Kansas City S. Ry., 635 F.3d 796, 806
(5th Cir. 2011) (footnote omitted). The ICCTA “does

30a
not preempt only explicit economic regulation. Rather, it preempts all ‘state laws that may reasonably
be said to have the effect of managing or governing rail
transportation, while permitting the continued application of laws having a more remote or incidental effect on rail transportation.’” New York Susquehanna
& W. Ry. v. Jackson, 500 F.3d 238, 252 (3d Cir. 2007)
(quoting Florida E. Coast Ry. v. City of W. Palm Beach,
266 F.3d 1324, 1331 (11th Cir. 2001)). See also Wisconsin Cent. Ltd. v. City of Marshfield, 160 F. Supp. 2d
1009, 1014 (W.D. Wis. 2000) (“The ICCTA expressly
preempts more than just state laws specifically designed to regulate rail transportation.”).
In City of Auburn v. United States, 154 F.3d 1025
(9th Cir. 1998), a city challenged the STB’s finding
that the ICCTA preempted state and local environmental permitting laws, arguing that “the ICCTA legislative history establishes Congress’ intent to
preempt only economic regulation of rail transportation, not the traditional state police power of environmental review.” 154 F.3d at 1029. The city, pointing
to legislative history, stated in its brief that the local
environmental regulations at issue were not “economic
regulations” but rather “‘essential local police power
required to protect the health and safety of citizens. . . .’” 154 F.3d at 1029.
The court noted that “there is nothing in the case
law that supports [the city’s] argument that, through
the ICCTA, Congress only intended preemption of economic regulation of the railroads.” 154 F.3d at 1030.
Further, it stated: “[I]f local authorities have the ability to impose ‘environmental’ permitting regulations
on the railroad, such power will in fact amount to ‘economic regulation’ if the carrier is prevented from

31a
constructing, acquiring, operating, abandoning, or discontinuing a line.” 154 F.3d at 1031.
Thus, contrary to the main opinion, the preemptive effect of the ICCTA and the jurisdiction it provides
to the STB is not limited to “economic” regulation.
In addressing whether the ICCTA preempts statelaw claims that rail lines have been abandoned, courts
have looked to the plain language of 49 U.S.C.
§ 10501(b), which states, in pertinent part:
“(b) The jurisdiction of the [STB] over—
“(1) transportation by rail carriers, and
the remedies provided in this part with respect to rates, classifications, rules (including car service, interchange, and other operating rules), practices, routes, services,
and facilities of such carriers; and
“(2) the construction, acquisition, operation, abandonment, or discontinuance of
spur, industrial, team, switching, or side
tracks, or facilities, even if the tracks are
located, or intended to be located, entirely
in one State,
“is exclusive. Except as otherwise provided in
this part, the remedies provided under this
part with respect to regulation of rail transportation are exclusive and preempt the remedies provided under Federal or State law.”
(Emphasis added.)
Under the ICCTA, “transportation” has a very
broad meaning that includes “property . . . regardless
of ownership or agreement concerning use.” 49 U.S.C.
§ 10102(9)(A).
Union Pacific, 647 F.3d at 678

32a
(“Congress also defined ‘transportation’ to include railroad property, facilities, and equipment ‘related to the
movement of passengers or property, or both, by rail,
regardless of ownership or an agreement concerning
use.’ 49 U.S.C. § 10102(9).”). Thus, as discussed below,
the STB has exclusive jurisdiction over railroad property and the issue of abandonment of that property—
and any remedy provided by state law—is preempted.
In the context of attempts to use state law to obtain property from railroads, such as by condemnation
or adverse possession, federal courts, in applying
§ 10501(b), have explicitly held that such claims are
preempted and fall under the jurisdiction of the STB.
In Soo Line R.R. v. City of St. Paul, 827 F. Supp. 2d
1017 (D. Minn. 2010), the court held that a city’s proposed condemnation action seeking an easement over
railroad property that ran along a rail line “falls
squarely within the definition of ‘transportation’ as defined by ‘49 U.S.C. § 10102(9),’” despite the city’s argument that the easement it sought would not interfere
with railroad operations. 827 F. Supp. 2d at 1021.
The proposed condemnation, the court held, “would be
an act seeking to control” the property and was thus
“a form of regulation” that fell “into the broad category
of actions that are per se preempted under the ICCTA.”
827 F. Supp. 2d at 1022. See also Union Pacific, 647
F.3d at 683 (holding that a state-law action to condemn an easement over a portion of a railroad’s property that was being leased to the plaintiff was
“preempted because it prevents and unreasonably interferes with railroad transportation” on the property); B & S Holdings, LLC v. BNSF Ry., 889 F. Supp.
2d 1252, 1260 (E.D. Wash. 2012) (holding that a quiettitle action alleging that property along a rail line had

33a
been adversely possessed under state law “necessarily
involve[d] the regulation of rail transportation”); and
14500 Ltd. v. CSX Transp., Inc. (No. 1:12CV1810,
March 14, 2013) (N.D. Ohio 2013) (not reported in
F. Supp. 2d) (holding that the ICCTA preempted an
action to quiet title over railroad property that had allegedly been adversely possessed).
In the context of allegations identical to the one in
the instant case, i.e., that railroad easements or
rights-of-way were abandoned, courts have held that
the ICCTA preempts state-law actions. In Cedarapids,
Inc. v. Chicago, Central & Pacific R.R., 265 F. Supp.
2d 1005 (N.D. Iowa 2003), the plaintiff contended that
a railroad had abandoned a section of a rail-line easement by ceasing operations and, thus, under Iowa
state law, that the property reverted to the plaintifF. 265 F. Supp. 2d at 1007. After discussing the language of 49 U.S.C. § 10501(b) and the broad definition
of “property” under 49 U.S.C. § 10102(9)(A), the court
stated that “the ICCTA grants to the STB exclusive
jurisdiction over nearly all matters of rail regulation.”
265 F. Supp. 2d at 1012. Such regulation included not
only state “economic” regulation, but also regulation of
the abandonment of rail lines, which included the
plaintiff’s state-law suit to declare a rail line abandoned:
“The Court’s review of the nature and
purpose of the ICCTA, as evidenced by both
the legislative history and the plain language
of the statute, leads the Court to conclude
that, in enacting the ICCTA, Congress intended to occupy completely the field of state
economic regulation of railroads. The Court
also finds that the ICCTA preempts state

34a
regulation of the abandonment of lines of railroad. The ICCTA’s grant of exclusive jurisdiction to the STB over the abandonment of
tracks and its expansion of the types of tracks
within this exclusive jurisdiction to include
wholly intrastate spur and industrial tracks
indicates that Congress intended for the
abandonment of all types of tracks to be under
the STB’s jurisdiction. This comports with
Congress’ stated desire of deregulation of the
railroad industry by ensuring that states do
not impose regulations which conflict with or
undermine those set forth in the ICCTA and
imposed by the STB with respect to the abandonment of tracks.”
265 F. Supp. 2d at 1013 (emphasis added). See also
Wedemeyer v. CSX Transp., Inc. (No. 2:13-cv-00440LJM-WGH, Oct. 20, 2015) (S.D. Ind. 2015) (not reported in F. Supp. 2d) (holding that “the term ‘regulate’ does not only refer to a state regulation or state
action; rather it refers to controls or limitations of any
kind” and, thus, that an action to quiet title alleging
that a railroad had abandoned an easement was an attempt to use state law to “regulate” the railroad’s use
of the easement), and Groh v. Union Pacific R.R. (No.
17-00741-CV-W-ODS, Dec. 1, 2017) (W.D. Mo. 2017)
(not reported in F. Supp. 2d) (holding that a state-law
action alleging that a railroad had abandoned its easement fell within the scope of the ICCTA).
This concept is not new in Alabama. In Mobile &
Gulf R.R. v. Crocker, 455 So. 2d 829 (Ala. 1984), certain landowners sought a judgment declaring that a
railroad easement across their property had been
abandoned because the railroad “ceased all operation

35a
of trains across the right-of-way in dispute.” 455 So. 2d
at 831. This Court held, however, that the STB’s predecessor agency, the Interstate Commerce Commission, “had exclusive jurisdiction to determine whether
there was an abandonment of the railroad right-ofway.” 455 So. 2d at 834. The main opinion attempts
to distinguish Crocker by noting a distinction in the
way the easement in Crocker was obtained as compared to the easement in the instant case. However,
49 U.S.C. § 10501(b) does not provide that its application is contingent on how a railroad obtains property
initially. Furthermore, no proceedings before the STB
are required to “invoke” its jurisdiction; the ICCTA itself preempts remedies under state law, and the STB’s
jurisdiction is “exclusive.” Grosso v. Surface Transp.
Bd., 804 F.3d 110, 114 (1st Cir. 2015) (“Whether or not
the [STB] is exercising its regulatory authority over
the transportation, state and local laws governing
such transportation are generally preempted.” (footnote omitted)).
Under the plain language of 49 U.S.C. § 10501(b),
the claims in the underlying action are preempted by
the ICCTA and exclusive jurisdiction of the action
rests with the STB. Under Crocker, the trial court
lacked subject-matter jurisdiction in this case.
Stewart, J., concurs.

36a
APPENDIX B
________________________________
CIRCUIT COURT OF
MONROE COUNTY, ALABAMA
________________________________
Case No. CV-2017-900097.00
AA NETTLES, SR. PROPERTIES LIMITED,
BOYLES DOVIE, BOYLES EULA LAMBERT,
Plaintiffs,
v.
MONROE COUNTY COMMISSION,
Defendant.
________________________________
January 10, 2018
________________________________
FINAL ORDER
The parties appeared before the Court on December 20, 2017 for a trial on the merits of the Plaintiff’s
action to quiet title to their property. After examining
the testimony and evidence before the Court, this
Court makes the following findings of law and fact.
1.

The property which is the basis of this action is
located in Monroe County Alabama. Therefore,
said property is subject to the jurisdiction of this
Court and of the State of Alabama.

2.

The Plaintiffs were conveyed the real property
which is the basis of this action by the railroad in
1997. The conveyance from the railroad to the
Plaintiffs
contained
an
easement
(the

37a
“Easement”) in favor of the railroad. The Easement was narrowly drafted and provided only for
the operation and maintenance of a railroad on
the Plaintiffs’ property.
3.

In 2013, the Railroad conveyed the real property
to the Monroe County Commission for use as a
recreational trail. The property was conveyed
from the Railroad to the Monroe County Commission via quitclaim deed.

4.

The Railroad could not have changed the character of the Easement from a railroad easement to
an easement for recreational trail use. Under Alabama law, the Railroad was prohibited from
changing the character of the Easement. As a
general rule, one holding an easement cannot
change the character of that easement, Blalock v.
Conzelman, 751 So.2d 2 (Ala. 1999), or “enlarge
upon [that] easement for other purposes.” Roberts
v. Monroe, 261 Ala. 569, 577, 75 So.2d 492, 499
(1954). See also Chatham v. Blount County, 789
So. 2d 235, 241 (Ala. 2001). The Alabama Supreme Court has held that as to a railroad easement, such easements are limited in use to railroad purposes. Nashville, C. & St. L. Ry. v. Karthaus, 150 Ala. 633, 43 So. 791 (1907); West v.
Louisville & N. R.R., 137 Ala. 568, 34 So. 852
(1903).

5.

The Railroad abandoned its easement when it
failed to rebuild the burnt train trestle and when
it removed the rails and cross ties from the property. The evidence before the Court indicates that
the Railroad had abandoned its easement by removing the rails and by failing to reconstruct an
trestle bridge which was essential for operation of

38a
the railroad on the disputed property. Under Alabama law, an easement granted for a specific
purpose is deemed abandoned when its owner “by
his own act renders the use of the easement impossible, or himself obstructs it in a manner inconsistent with its further enjoyment.” Byrd Cos. v.
Smith, 591 So.2d 844, 847 (Ala. 1991) (quoting
Polyzois v. Resnick, 123 Neb. 663, 668, 243 N.W.
864, 866 (1932) (quoting treatise)). See also Tatum v. Green, 535 So.2d 87, 88 (Ala. 1988) (“[A]n
easement given for a specific purpose terminates
as soon as the purpose ceases to exist, is abandoned, or is rendered impossible of accomplishment.”). Both the failure to construct an essential
trestle and the removal of the rails indicated
abandonment of the railroad easement and rendered the specific purpose of the easement (i.e. the
maintenance and operation of a railroad service)
impossible. Accordingly, the easement had terminated and no longer existed.
6.

Ownership of the Easement property vested with
the Plaintiffs when the Easement terminated.
When an easement terminates, the underlying fee
title of the right of way passes to the abutting
landowner[.] Ex parte Jones, 669 So.2d 161 (Ala.
1995). Specifically, where roadbeds or railroad
easements are terminated, ownership of the underlying fee . . . is presumed to vest in the adjoining landowners. Id. at 165. When the Easement
terminated, the Railroad owned nothing.

7.

The 2013 conveyance from the Railroad to the
Monroe County Commission, which was done via
quitclaim deed, did not convey the property to the
Commission because the Railroad had nothing to

39a
convey, “A quitclaim deed can convey nothing
more than what the grantor actually owns.” Benedict v. Little, 288 Ala. 638, 643, 264 So.2d 491,
494 (Ala. 1972). See also Chatham v. Blount
County, 789 So. 2d at 243, in its discussion of Benedict v. Little, (“Under the circumstances of [Chatham], Cheney’s quitclaim deed conveyed nothing
to the County and the City because before it executed that deed, Cheney had already abandoned
any rights, title, and interests it had had in the
easements. In Benedict, which also involved the
question whether a railroad easement had been
abandoned, this Court stated, ‘“[T]he quitclaim
from L & N to appellees conveyed nothing because
L & N had nothing to convey after abandoning the
right of way and removing the rails and crossties.’”). Therefore, it is
ORDERED, ADJUDGED and DECREED that
this Court enters a PERMANENT INJUNCTION and
the Monroe County Commission shall not proceed with
the recreational trail on the Plaintiffs’ property.
DONE this 10th day of January, 2018.
/s/ JACK B WEAVER
CIRCUIT JUDGE

40a
APPENDIX C
________________________________
SURFACE TRANSPORTATION BOARD
________________________________
Docket No. AB 463 (Sub-No. 1X)
ALABAMA RAILROAD CO.—
ABANDONMENT EXEMPTION—
IN MONROE COUNTY, ALA.
________________________________
April 19, 2013
________________________________
DECISION AND NOTICE OF INTERIM TRAIL USE
OR ABANDONMENT
By the Board, Rachel D. Campbell, Director, Office of
Proceedings
Alabama Railroad Co. (ALAB) filed a verified notice of exemption under 49 C.F.R. pt. 1152 subpart F—
Exempt Abandonments to abandon approximately
7.42 miles of rail line between milepost 655.20 (east of
Route 21 at Tunnel Springs) and milepost 662.62 (west
of Main Street in Beatrice), in Monroe County, Ala.
Notice of the exemption was served and published in
the Federal Register on March 21, 2013 (78 Fed. Reg.
17,468). The exemption is scheduled to become effective on April 20, 2013.
The Board’s Office of Environmental Analysis
(OEA) served an environmental assessment (EA) in
this proceeding on March 26, 2013. In the EA, OEA
stated that the National Geodetic Survey (NGS)

41a
submitted comments stating that four geodetic survey
markers are located in the area of the proposed abandonment. Accordingly, OEA recommends that ALAB
consult with NGS and notify NGS at least 90 days
prior to beginning salvage activities that would disturb or destroy any geodetic station markers.
In addition, OEA stated that the U.S. Fish and
Wildlife Service (USFWS) submitted comments stating that the following threatened, endangered, and
candidate species are found in the project area: Red
Hills salamander, Gopher tortoise, Southern clubshell, and Alabama pearlshell. USFWS further stated
that the proposed abandonment would have no impacts on these species if salvage operations are conducted within the right-of-way and there is no disturbance of the stream/creek bottom;1 to that end, USFWS
recommends that ALAB utilize Best Management
Practices (BMPs) in order to protect water quality. Accordingly, OEA recommends a condition requiring
ALAB to ensure that BMPs are followed during salvage activities.
Comments to the EA were due April 10, 2013. No
comments were received. Accordingly, the conditions
recommended by OEA in the EA will be imposed.
Based on OEA’s recommendation, the proposed abandonment, if implemented as conditioned, will not significantly affect either the quality of the human environment or the conservation of energy resources.

1

OEA notes ALAB’s statement in its environmental report
that it would not be conducting any in-stream work as part of the
planned abandonment and that salvage activities would be conducted within the right-of-way.

42a
In the EA, OEA also stated that the right-of-way
may be suitable for other public use following abandonment and salvage of the line. On March 22, 2013,
the Monroe County Commission (MCC) filed a request
for the issuance of a notice of interim trail use (NITU)
to negotiate with ALAB for acquisition of the line for
use as a trail under the National Trails System Act
(Trails Act), 16 U.S.C. § 1247(d), and 49 C.F.R.
§ 1152.29. Pursuant to 49 C.F.R. § 1152.29, MCC has
submitted a statement of its willingness to assume financial responsibility for the right-of-way, and has
acknowledged that the use of the right-of-way for trail
purposes is subject to possible future reconstruction
and reactivation of the right-of-way for rail service. By
response filed on March 29, 2013, ALAB has indicated
its willingness to negotiate with MCC for interim trail
use.
Because MCC’s request complies with the requirements of 49 C.F.R. § 1152.29 and ALAB is willing to
negotiate for trail use, a NITU will be issued. The parties may negotiate an agreement for the right-of-way
during the 180-day period prescribed below. If an interim trail use agreement is reached (and thus, interim trail use is established), the parties shall jointly
notify the Board within 10 days that an agreement has
been reached. 49 C.F.R. § 1152.29(d)(2) and (h); Nat’l
Trails Sys. Act & R.R. Rights-of-Way, EP 702 (STB
served Apr. 30, 2012). If no agreement is reached
within 180 days, ALAB may fully abandon the line. 49
C.F.R. § 1152.29(d)(1). Use of the right-of-way for trail
purposes is subject to possible future reconstruction
and reactivation of the right-of-way for rail service.
MCC also has requested imposition of a public use
condition under 49 U.S.C. § 10905 for the right-of-way.

43a
MCC asks that ALAB be prohibited from disposing of
the corridor, other than tracks, ties, and signal equipment, except for public use on reasonable terms, and
that ALAB be barred from the removal or destruction
of potential trail-related structures, such as bridges,
trestles, culverts, and tunnels, for a 180-day period
from the effective date of the abandonment authorization. MCC’s justification for its request is that these
structures have considerable value for recreational
trail purposes. MCC states that the 180-day period is
needed to complete a detailed trail plan and to commence negotiations with ALAB.
As an alternative to interim trail use under the
Trails Act, the right-of-way may be acquired for public
use as a trail under 49 U.S.C. § 10905. See Rail
Abans.—Use of Rights-of-Way as Trails, 2 I.C.C.2d
591, 609 (1986). Under § 10905, the Board may prohibit the disposal of rail properties that are proposed
to be abandoned and are appropriate for public purposes for a period of not more than 180 days after the
effective date of the decision approving or exempting
the abandonment.
To justify a public use condition, a party must set
forth: (i) the condition sought; (ii) the public importance of the condition; (iii) the period of time for
which the condition would be effective; and (iv) justification for the imposition of the period of time requested. 49 C.F.R. § 1152.28(a)(2). Because MCC has
satisfied these requirements, a 180-day public use condition will be imposed, requiring ALAB to keep intact
the right-of-way (including trail-related structures
such as bridges, trestles, culverts, and tunnels) and to
refrain from disposing of the corridor (other than

44a
tracks, ties, and signal equipment), commencing from
the April 20, 2013 effective date of the exemption.
When the need for interim trail use/rail banking
and public use is shown, it is the Board’s policy to impose both conditions concurrently, subject to the execution of a trail use agreement. Here, however, while
both conditions will be imposed at this time, the public
use condition will expire on October 17, 2013, while
the trail use negotiating period will run 180 days from
the service date of this decision and notice until October 16, 2013. If a trail use agreement is reached on a
portion of the right-of-way prior to October 16, 2013,
ALAB must keep the remaining right-of-way intact for
the remainder of the 180-day public use condition period to permit public use negotiations. Also, a public
use condition is not imposed for the benefit of any one
potential purchaser, but rather to provide an opportunity for any interested person to acquire the rightof-way that has been found suitable for public purposes, including trail use. Therefore, with respect to
the public use condition, ALAB is not required to deal
exclusively with MCC, but may engage in negotiations
with other interested persons.
As conditioned, this action will not significantly
affect either the quality of the human environment or
the conservation of energy resources.
It is ordered:
1. This proceeding is reopened.
2. Upon reconsideration, the notice served and
published in the Federal Register on March 21, 2013,
exempting the abandonment of the line described
above is modified to the extent necessary to implement
interim trail use/rail banking as set forth below to

45a
permit MCC to negotiate with ALAB for trail use for
the rail line, for a period of 180 days from the service
date of this decision and notice, until October 16, 2013
and to permit public use negotiations as set forth below, for a period of 180 days commencing from the
April 20, 2013 effective date of the exemption, until
October 17, 2013. The abandonment is also subject to
the conditions that ALAB: (1) consult with NGS and
notify NGS at least 90 days prior to beginning salvage
activities that will disturb or destroy any geodetic station markers; and (2) ensure that BMPs are followed
during salvage activities.
3. Consistent with the public use and interim
trail/rail banking conditions imposed in this decision
and notice, ALAB may discontinue service and salvage
track and related materials. ALAB shall otherwise
keep intact the right-of-way, including potential trailrelated structures such as bridges, trestles, culverts,
and tunnels, for a period of 180 days (until October 17,
2013) to enable any state or local government agency,
or other interested person, to negotiate the acquisition
of the right-of-way for public use. If an interim trail
use/rail banking agreement is executed before expiration of the 180-day public use condition period, the
public use condition will expire to the extent the trail
use/rail banking agreement covers the same portion of
the right-of-way.
4. If an interim trail use/rail banking agreement
is reached, it must require the trail sponsor to assume,
for the term of the agreement, full responsibility for:
(i) managing the right-of-way; (ii) any legal liability
arising out of the transfer or use of the right-of-way
(unless the sponsor is immune from liability, in which
case it need only indemnify the railroad against any

46a
potential liability); and (iii) the payment of any and all
taxes that may be levied or assessed against the rightof-way.
5. Interim trail use/rail banking is subject to possible future reconstruction and reactivation of the
right-of-way for rail service and to the trail sponsor’s
continuing to meet its responsibilities for the right-ofway described in ordering paragraph 4 above.
6. If an interim trail use agreement is reached
(and thus, interim trail use is established), the parties
shall jointly notify the Board within 10 days that an
agreement has been reached. 49 C.F.R. § 1152.29(d)(2)
and (h).
7. If interim trail use is implemented, and subsequently the trail sponsor intends to terminate trail use
on all or any portion of the right-of-way covered by the
interim trail use agreement, it must send the Board a
copy of this decision and notice and request that it be
vacated on a specified date.
8. If an agreement for interim trail use/rail banking is reached by October 16, 2013 for the right-of-way,
interim trail use may be implemented. If no agreement
is reached, ALAB may fully abandon the line.
9. This decision and notice is effective on its service date.

47a
APPENDIX D
Article VI, clause 2 of the U.S. Constitution
provides:
This Constitution, and the Laws of the United
States which shall be made in Pursuance thereof; and
all Treaties made, or which shall be made, under the
Authority of the United States, shall be the supreme
Law of the Land; and the Judges in every State shall
be bound thereby, any Thing in the Constitution or
Laws of any State to the Contrary notwithstanding.
16 U.S.C. § 1247 provides in part:
§ 1247. State and local area recreation and
historic trails
*

*

*

(d) Interim use of railroad rights-of-way
The Secretary of Transportation, the Chairman of
the Surface Transportation Board, and the Secretary
of the Interior, in administering the Railroad Revitalization and Regulatory Reform Act of 1976 [45 U.S.C.
801 et seq.], shall encourage State and local agencies
and private interests to establish appropriate trails
using the provisions of such programs. Consistent
with the purposes of that Act, and in furtherance of
the national policy to preserve established railroad
rights-of-way for future reactivation of rail service, to
protect rail transportation corridors, and to encourage
energy efficient transportation use, in the case of interim use of any established railroad rights-of-way
pursuant to donation, transfer, lease, sale, or otherwise in a manner consistent with this chapter, if such
interim use is subject to restoration or reconstruction

48a
for railroad purposes, such interim use shall not be
treated, for purposes of any law or rule of law, as an
abandonment of the use of such rights-of-way for railroad purposes. If a State, political subdivision, or
qualified private organization is prepared to assume
full responsibility for management of such rights-ofway and for any legal liability arising out of such
transfer or use, and for the payment of any and all
taxes that may be levied or assessed against such
rights-of-way, then the Board shall impose such terms
and conditions as a requirement of any transfer or conveyance for interim use in a manner consistent with
this chapter, and shall not permit abandonment or discontinuance inconsistent or disruptive of such use.
*

*

*

49 U.S.C. § 10501 provides in part:
§ 10501. General jurisdiction
*

*

*

(b) The jurisdiction of the Board over—
(1) transportation by rail carriers, and the remedies provided in this part with respect to rates, classifications, rules (including car service, interchange, and other operating rules), practices,
routes, services, and facilities of such carriers; and
(2) the construction, acquisition, operation, abandonment, or discontinuance of spur, industrial,
team, switching, or side tracks, or facilities, even if
the tracks are located, or intended to be located, entirely in one State,
is exclusive. Except as otherwise provided in this part,
the remedies provided under this part with respect to

49a
regulation of rail transportation are exclusive and
preempt the remedies provided under Federal or State
law.
*

*

*

